<html>
<title> - EXAMINING ONGOING FOREVER GI BILL IMPLEMENTATION EFFORTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
        EXAMINING ONGOING FOREVER GI BILL IMPLEMENTATION EFFORTS

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                and the

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 9, 2019

                               __________

                           Serial No. 116-11

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
39-915              WASHINGTON : 2021         
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                     SUSIE LEE, Nevada, Chairwoman

JULIA BROWNLEY, California           JIM BANKS, Indiana, Ranking Member
CONOR LAMB, Pennsylvania             STEVE WATKINS, Kansas
JOE CUNNINGHAM, South Carolina       CHIP ROY, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                         Thursday, May 9, 2019

                                                                   Page

Examining Ongoing Forever GI Bill Implementation Efforts.........     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman, Subcommittee on Economic 
  Opportunity....................................................     1
Honorable Susie Lee, Chairwoman, Subcommittee on Technology 
  Modernization..................................................     2
Gus M. Bilirakis, Ranking Member, Subcommittee on Economic 
  Oppurtunity....................................................     3
Jim Banks, Ranking Member, Subcommittee on Technology 
  Modernization..................................................     4

                               WITNESSES

Dr. Paul R. Lawrence, Under Secretary for Benefits, Department of 
  Veterans Affairs (VA)..........................................     5
    Prepared Statement...........................................    33

        Accompanied by:

    Ms. Charmain Bogue, Acting Executive Director, Education 
        Services Veterans Benefits Administration

Mr. James P. Gfrerer, Assistant Secretary, Office of Information 
  and Technology, U.S. Department of Veterans Affairs, No opening 
  statement......................................................

        Accompanied by:

    Mr. Robert Orifini Information Technology, Specialist 
        Architecture, Strategy, and Design Office of Information 
        and Technology

The Honorable Michael J. Missal, Inspector General, Department of 
  Veterans Affairs (VA)..........................................     8
    Prepared Statement...........................................    36

Mr. Jay Schnitzer, MD, Ph.D., Vice President, Chief Technology 
  Officer, The MITRE Corporation.................................     9
    Prepared Statement...........................................    39

                       STATEMENTS FOR THE RECORD

Veterans Education Success (VES).................................    42


        EXAMINING ONGOING FOREVER GI BILL IMPLEMENTATION EFFORTS

                              ----------                              


                         Thursday, May 9, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 10:05 a.m., 
in Room 210, House Visitors Center, Hon. Mike Levin presiding.
    Present: Representatives Lee, Brownley, Rice, Lamb, 
Brindisi, Cunningham, Luria, Pappas, Bilirakis, Banks, Roe, 
Bergman, Barr, Meuser, Watkins, and Roy.

  OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN, SUBCOMMITTEE ON 
                      ECONOMIC OPPORTUNITY

    Mr. Levin. Good morning. I call this hearing to order. I 
want to thank everyone for joining us today for this joint 
hearing between the Economic Opportunity and Technology 
Modernization Subcommittees.
    Today, we will be reviewing the VA's implementation of the 
Colmery Act, also known as the Forever GI Bill. It has been 
almost 2 years since Congress passed the Forever GI Bill into 
law. Questions remain about the Department's implementation, 
particularly, of sections 107 and 501, which change the 
allowance for housing benefits veterans would receive.
    VA contracted with Booz Allen to make essential, major 
modifications to its information technology systems that 
process education claims and payments; however, in July 2018, 
with just one month to go, it became clear that the August 1st 
deadline would not be met. In the fall 2018 semester, student 
veterans faced long delays in payments, with some news reports 
stating that several student veterans were getting evicted from 
their living situations because of the delays. Clearly, these 
modifications have not gone smoothly.
    In November 2018, the VA announced a reset of its 
implementation efforts indicating that implementation would 
occur by December 1st, 2019, for the spring 2020 semester. That 
led to the VA signing a new contract earlier this year with 
Accenture, since which time we have closely tracked 
implementation, as we continue to do today.
    In this committee's previous hearings regarding the 
President's budget requests and our field hearing in San Diego, 
we examined shortfalls in the Forever GI Bill execution. 
Repeatedly, we have asked VA officials if the resources they 
are allocating today and are requesting in the future are 
sufficient to deliver our Nation's veterans the benefits they 
have earned.
    Both Ranking Member Bilirakis and I have expressed doubts 
that the Department will be ready by its new deadline. While we 
have received promises of confidence from the VA, it is this 
committee's duty to exercise oversight authority over the law's 
implementation. That brings us to today's hearing and our 
witnesses, and I thank you all for being here.
    We are fortunate to have experts with the VA, with the VA 
Office of the Inspector General, and The MITRE Corporation. The 
inspector general conducted its own assessment of the Forever 
GI Bill and implementation, as well as requesting that MITRE 
conduct an independent technical assessment. The IG's findings 
were stark.
    The VA lacked an accountable leader who could oversee 
project delivery and I quote, ``Resulting in unclear 
communication of implementation progress and inadequately 
defined expectations, roles, and responsibilities of the 
various VA business lines and contractors involved.''
    Our opportunity here today is to see where things stand and 
to learn from failures of the past. I look forward to hearing 
the testimony from our witnesses to determine where we should 
be focusing our efforts, and with that, I now recognize 
Technology Modernization Subcommittee chair, Lee, for her 
opening statement.

  OPENING STATEMENT OF SUSIE LEE, CHAIRWOMAN, SUBCOMMITTEE ON 
                    TECHNOLOGY MODERNIZATION

    Ms. Lee. Thank you, Chairman Levin.
    I am pleased that we could hold this joint hearing today, 
ensuring that student veterans get the benefits they have 
earned and that the Department of Veterans Affairs has the 
systems capable of delivering these benefits is at the heart of 
both of our Subcommittees' work. The Subcommittee that I chair, 
the Subcommittee on Technology Modernization, has a broad 
mandate to look at the systems, big and small, and to conduct 
oversight on how the VA is trying to modernize these systems.
    One question I have is, what does the universe of legacy 
systems look like? I want to try to get a handle on that answer 
today.
    I am also very concerned about the VA's ability to 
successfully move from legacy to modern systems. This is not 
just because the VA faces challenges like every Federal agency 
with keeping up with the pace of technology and prioritizing 
programs and budgets; it is because the VA seems to manage to 
get in its own way time and time again. Leadership vacuums, 
mismanagement, and an overreliance on contractors makes it hard 
to succeed.
    It is good to have lessons learned, but unfortunately you 
had to fail to get here. Management has to lead, but in the 
case of the Forever GI Bill implementation, management was 
absent; no one was in charge. A lack of accountability, a lack 
of governance, it is not just a Veterans Benefits 
Administration issue, it is a whole of VA issue. I am troubled 
by governance issue in IT implementation across the department. 
It is especially concerning in one of VA's biggest IT 
investments, the electronic health record modernization. We 
have been asking repeatedly for VA and the Department of 
Defense to provide information about their governance proposal 
for months, but all we hear is crickets; meanwhile, the program 
continues to move further down the track and millions of 
dollars are being spent.
    Building a house on a shaky foundation has real risks and a 
lack of governance is going to be a problem down the line. I 
hope the rest of the VA leadership will look at what happened 
with the Forever GI Bill and see an opportunity to make 
improvements to the way other IT programs are being implemented 
and I hope that today's discussion will spur the VA to do more 
to get a handle on this governance problem before we hear of 
yet another IT failure at VA.
    I am sure at the witness table you all are cognizant of 
this, but I want to be clear, that IT failures don't happen in 
a vacuum. These IT failures mean that if veterans don't get 
their benefits, they get evicted from their home, and have 
their education disrupted. These failures have real 
consequences for our veterans.
    I thank the witnesses for being here today and I look 
forward to your testimony.
    Thank you, I yield.
    Mr. Levin. Thank you, Chair Lee.
    I now recognize Economic Opportunity Subcommittee Ranking 
Member Bilirakis for 5 minutes for his opening statement.

      OPENING STATEMENT GUS M. BILIRAKIS, RANKING MEMBER, 
              SUBCOMMITTEE ON ECONOMC OPPORTUNITY

    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. I am proud to be here today to be part of the 
Subcommittee's continued review of the implementation of the 
Forever GI Bill.
    The Subcommittee on Economic Opportunity was the only 
Committee on The Hill to hold any hearings on the 
implementation of this law last Congress, and I thank you, Mr. 
Chairman, for continuing to examine this vital program.
    As I mentioned at our hearing last week, the failure by the 
VA to update their IT systems caused massive delays in 
processing GI Bill claims for thousands of student veterans 
last fall. For many student veterans, these payments are the 
only source of income they have while they are in school. To 
those who have tried to downplay the financial impact and 
stress these delays placed on these veterans, I ask you to go 
weeks, if not months, without a paycheck and see how that 
impacts you.
    As our Subcommittee hearing last week, Dr. Lawrence's top 
deputy, Ms. Devlin, testified that she was completely confident 
that VA has turned the corner and would meet their new self-
imposed deadline to fully implement sections 107 and 501 of the 
Forever GI Bill by no later than December 1st, 2019. While I 
certainly want to believe that the IT modification will be 
ready, I know Mr. Banks has some specific thoughts and 
questions on the system itself. I wouldn't be doing my job if I 
wasn't just a bit skeptical of this promise by the VA; after 
all, last year, these same types of assurances had been given 
to this Subcommittee time and time again.
    Now, I don't begrudge the VA staff working on this problem. 
I know many of them are the most dedicated employees in the 
department, but I do hope that our witnesses will testify about 
the lessons they have learned and that they are ready to show 
us why the results will be different this year.
    Today, I am also looking forward to hearing from our 
witnesses about what their plan will be on when and how to make 
students whole, who were underpaid since August 1st, 2018, set 
forth in the law. I agree with Dr. Lawrence's intention to 
ensure these retroactive payments don't impact the processing 
of current housing payments, but students should expect to be 
paid as soon as possible, not just when it is convenient for 
the VA and the schools.
    I also look forward to hearing from VA's witnesses about 
their plan for communicating how these IT modifications and 
implementation of the law will impact students in schools. 
Despite VA's best intentions last fall, many students were left 
unprepared for the delays and still do not understand how the 
changes will impact them and their monthly budgets of.
    Finally, I look forward to hearing from Assistant Secretary 
Gfrerer about what investments have and will be made to upgrade 
aging IT systems for GI Bill processing. Many of the delays 
last fall can also be linked to an ancient IT system not being 
able to communicate with one another due to bandwidth or other 
issues.
    Mr. Chairman, the delays last fall were certainly not the 
first time the VA has failed to provide GI Bill payments on 
time, but we must do everything we can to ensure that such 
delays never happen again. Our student veterans deserve better.
    I yield back, Mr. Chairman. Thank you.
    Mr. Levin. Thank you, Mr. Ranking Member.
    Finally, I recognize Technology Modernization Subcommittee 
Ranking Member, Banks, for his opening statement.

OPENING STATEMENT OF JIM BANKS, RANKING MEMBER, SUBCOMMITTEE ON 
                    TECHNOLOGY MODERNIZATION

    Mr. Banks. Thank you, Mr. Chairman.
    The VA's struggle to implement the Forever GI Bill is not 
primarily an IT story. This is a story about student veterans 
pursuing their educations, paying their bills, and living their 
lives. I know that is not lost on anyone in this room and my 
colleagues have described this eloquently already.
    But nonetheless, it is important to say before anything 
else because IT problems in an organization as large as the VA 
have real world consequences. These particular IT struggles 
with LTS, VA-ONCE, WEAMS, and other systems concern me not 
because they are unusual, but because they are so ordinary. 
This disaster happened with two sections of the Forever GI 
Bill, but it could have been any VA program.
    What were the risk factors? Antiquated legacy systems, 
complicated interdependencies between the systems, uncertain 
requirements, many data feeds from different databases. That 
could describe nearly every situation our Subcommittee has ever 
examined.
    Going forward, I think VA has to approach every project 
with the assumption that it is high-risk. Any IT system on a 
decades-old platform that has not had a major modification in 
recent memory is going to be fragile. When you try to integrate 
it with something new, it is probably going to break.
    Let's go in with some of those assumptions. Let's do the IT 
assessment at the very beginning when VA is figuring out its 
business requirements that the IT systems are supposed to 
support. I hope those can be lessons learned, but right now, VA 
is facing another end-of-year deadline to modify LTS to 
accommodate the housing-allowance changes.
    We have the benefit of a year of trial and error, as well 
as MITRE's independent technical assessment and the inspector 
general's report. We have Under Secretary Lawrence as the 
single accountable official. We have a streamlined team of VBA 
and OIT professionals, and we have the attention and support of 
the highest levels of the department, and that is all very 
good, but we also have all the same legacy IT systems with the 
same complicated interdependencies.
    VA still has no end-to-end software testing process, test 
data, or common platform to test the new code against the 
various systems before putting it into production. The 
contractor is going to write all the code in increments 
according to the agile methodology.
    That is good, but the testing environment will not be in 
place, even under the best-case scenario until the very end, 
and that is bad. Even though the code will have been written in 
increments, it will have to be tested all at once and then put 
into production quickly. There is no reason to doubt that will 
happen, but it will be just in the nick of time.
    In other words, VA has some of the ingredients and is 
trying to get the remaining ingredients, but most of them are 
not in the sequence the recipe actually calls for. I believe 
the level of scrutiny this Committee has devoted to the Forever 
GI Bill is absolutely warranted, given the importance of the 
law and its impact on student veterans' lives. And I believe 
the level of priority that the VA has given to this issue is, 
in part, the result of that scrutiny. Our esteemed witness 
panel here today is evidence of that.
    We have the benefit of hindsight and some of the best minds 
at work from industry and government. Let's make this time 
different.
    With that, Mr. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Ranking Member.
    Now, I would like to turn to our witnesses. Appearing 
before us today is Dr. Paul Lawrence, Under Secretary for 
benefits, at the Department of Veterans Affairs, who is 
accompanied by Ms. Charmain Bogue, acting executive director of 
education services, at the Veterans Benefits Administration; 
Mr. James Gfrerer, assistant secretary for the VA Office of 
Information and Technology; and Mr. Robert Orifici, information 
technology specialist for architecture strategy, and design, at 
the VA Office of Information and Technology. We also have Mr. 
Michael Missal, inspector general of the Department of Veterans 
Affairs, and Mr. Jay Schnitzer, vice president and chief 
technology officer, of The MITRE Corporation.
    Thank you all for joining us. As you know, you will each 
have 5 minutes, but your full statements will be added to the 
record.
    Under Secretary Lawrence, you are now recognized to present 
your statement.

                 STATEMENT OF PAUL R. LAWRENCE

    Mr. Lawrence. Thank you, and good morning, Chairs Levin, 
Lee, Ranking Members Bilirakis and Banks, and Members of the 
Subcommittee. We appreciate the opportunity to appear before 
you today to discuss the positive progress VA is making on 
implementation of their Forever GI Bill.
    On November 28th, 2018, VA announced key changes in the 
implementation of sections 107 and 501. Because of the 
information technology difficulties VA experienced with 
implementing these sections, Secretary Wilkie announced a reset 
of VA's implementation efforts to give the Department time, 
contracting support, and necessary resources to develop the 
capabilities to process enrollments, in accordance with the 
law, but December 2019.
    Considering the IT challenges we faced in late summer, we 
did not update the monthly housing rates in August, as would 
normally occur. Within two weeks of the secretary's 
announcement, we took swift action and updated the 2018 and 
2019 academic year monthly housing rates for fall 2018. By the 
end of January, we processed over 450,000 corrections. As a 
result of this accelerated and aggressive timeline, over 
322,000 individuals received additional funds they were owed.
    I am also pleased to report that our pending education 
claims went from a high of 200,000 claims in September of 2018 
to the lowest it has been in months at under 65,000 claims on 
April 22nd, 2019. Our pending inventory is slightly above 
67,000 claims as of May 8th and our average current days to 
complete is 25 days for original claims and 13 days for 
supplemental claims. We are on track to meet or exceed our 
fiscal year targets of 28 and 14 days for processing original 
and supplemental claims, respectively.
    In early fall, VA engaged MITRE to perform an independent 
technical assessment of the capabilities necessary to meet 
these requirements. MITRE provided 20 recommendations intended 
to help us successfully implement the Forever GI Bill. We have 
completed 10 of the 20 recommendations as of April 30th, 2019. 
An additional 9 recommendations will be completed by June 30th 
and the remaining recommendations will be completed on 
September 30th. The approximate cost to conduct the ITA was 
$232,000.
    In December, VA, again contracted with MITRE to support and 
address the recommendations set forth in the ITA as they 
pertained to the Colmery Act program integration office. The 
value of this one-year contract is approximately $5.2 million. 
In preparation for the arrival of the software development 
systems integration vendor, we established the PIO as the 
formal entity within the department with assigned or aligned 
government leaders, staff, federally funded research and 
development center support, and contract support.
    This governance structure, which is supported by The MITRE 
Corporation is to serve as a decision authority for the 
definition and enforcement of norms for executing program 
activities and approval or disapproval of life cycle processes, 
control gates, activities, funding, acquisition, resources, and 
the systems required to achieve successful implementation. 
MITRE also coordinates functional, technical, and programmatic 
activities, capturing associated risk with these activities, 
and developing mitigation plans and strategies to ensure we are 
on schedule to meet the December 2019 implementation date.
    On February 15, 2019, we awarded a contract to Accenture 
Federal Services to provide systems integration to coordinate 
planning, development, and integrated testing of all systems 
associated with Colmery Act implementation. The approximate 
value of that contract for fiscal year 2019 is $14 million. The 
scope of their contract includes development of new software, 
interface with legacy systems, system architecture, and 
testing.
    Accenture and VA started working on implementation efforts 
the same day the new contract was awarded. Accenture has 
already analyzed the code delivered by Booz Allen Hamilton 
against the section 107 and 501 requirements, concluding it 
will not be utilized as a starting point for Accenture's own 
development efforts due to definition changes under these 
sections.
    Accenture, however, will evaluate the available code 
delivered by Booz to determine if any portions of it can be 
reused within Accenture's own development under a support 
contract.
    VA has made great progress in setting course for successful 
implementation of the Colmery Act while reducing the claims 
workload and improving timeliness to ensure our student 
veterans are paid without delay. Last year, the regional 
processing offices experienced significant latency issues that 
impacted operations, so we increased bandwidth at all three 
RPOs.
    The increased bandwidth at Muskogee RPO resulted in an 
increased capacity by nearly 50 percent. To further address 
this latency issue at Muskogee, we replaced over 500 user 
workstations to resolve issues with outdated network cards. In 
addition, the benefits delivery network system performance was 
improved by deploying a patch to 1,887 workstations.
    We continue to work closely and collaborate with OIT on 
technology improvements that support our field stations and our 
staff processing education claims.
    We also increased our efforts to communicate and 
disseminate information widely. In this regard, we have 
undertaken numerous initiatives to better serve and inform our 
stakeholders, including emailing updates to approximately 
700,000 veterans throughout December. We have also held a dozen 
roundtables and webinars for veterans and schools throughout 
December and January, reaching combined audiences in the 
thousands.
    We have begun holding more roundtables with schools, 
veteran service organizations, state-approving agencies, and 
other stakeholders to keep our partners aware of developments, 
solicit suggestions, and help us communicate the upcoming 
schedule. Each session includes emails afterwards communicating 
what was done and FAQs.
    Finally, from the beginning of this effort and throughout 
the successful implementation of the Forever GI Bill, we have, 
and will regularly and transparently, update our congressional 
partners on our progress and our work. This includes holding 
monthly briefings with the Oversight Committee, submitting the 
90-day report, as required by public law, and continue to be 
responsive to your questions and ask for information.
    We welcome and encourage the additional opportunities to 
share information with you and your staff and we look forward 
to maintaining this cadence of communication. Thank you, we 
look forward to answering your questions.

    [The prepared statement of Paul R. Lawrence appears in the 
Appendix]

    Mr. Levin. Thank you, Under Secretary Lawrence.
    Inspector General Missal, you are now recognized for 5 
minutes.

               STATEMENT OF THE MICHAEL J. MISSAL

    Mr. Missal. Mr. Chairman, Madam Chair, Ranking Member 
Bilirakis, Ranking Member Banks, and Members of the 
Subcommittee, thank you for the opportunity to discuss the 
Office of Inspector General's recent issued statement: Forever 
GI Bill Implementation Challenges. My statement will focus on 
the information we collected to respond to concerns from 
members of Congress and the public about the implementation of 
the Forever GI Bill requirements.
    Last fall, VBA acknowledged implementation challenges with 
sections 107 and 501 with the Forever GI Bill relating to the 
housing allowance. These two sections fundamentally redesign 
how VBA pays monthly housing allowance to veterans using the 
Post-9/11 Educational Assistance Program. These adjustments 
include a change in the base for the calculation of monthly 
housing stipends to the location of the campus where the 
student attends most classes, instead of the location of the 
main campus of the institution.
    VA's failure to properly implement these requirements led 
to the delivery of inaccurate or delayed housing stipend 
payments to eligible GI Bill recipients. The OIG examined VA's 
early implementation actions and the impediments to meeting 
Forever GI Bill implementation mandates. The OIG found that 
VBA's implementation of the payment of the housing allowances 
under the Forever GI Bill was hampered by the same two 
underlying issues that have negatively affected VA's 
implementation of other new policies and initiatives: lack of 
functionality and inadequate program leadership.
    Specifically, the OIG found that VBA failed to modify its 
IT systems by the required implementation date to make accurate 
housing-allowance payments. Additionally, VA lacked a single 
accountable official to oversee the project, which resulted in 
unclear communications to VA stakeholders of implementation 
progress and inadequately defined expectations, roles, and 
responsibilities of the various VA business lines and 
contractors involved.
    The OIG found that approximately 10 months passed from the 
time the Forever GI Bill became law to when VA received the 
initial software-development release and began testing the 
system modifications to VA's long-term solutions application in 
order to address sections 107 and 501. Once VA began testing 
the software-development release, it identified defects that 
required the development of additional versions availed to yes.
    Based on interviews we conducted, the OIG team learned that 
when user testing occurred, the test failed scenarios that VBA 
did not account for when developing the business requirements. 
The OIG found that VA's program offices held different 
expectations from one another as to what they considered 
complete and accurate business requirements.
    In addition, VA's Office of Information and Technology and 
VBA Education Service has divergent opinions of a deployable 
solution. Without an accountable official, these differing 
opinions and expectations were not mitigated or resolved and 
became significant impediments to a successful and timely 
implementation of the Forever GI Bill requirements. The OIG has 
continually identified systemic problems that VBA needs to 
address when implementing new initiatives and policies. These 
include a lack of IT system functionality, poor planning and 
communications, and inadequate program leadership. These same 
systemic problems were significant factors in the delays and 
disruption VA experienced while attempting to implement the 
housing allowance requirements in the Forever GI Bill.
    The OIG will continue to monitor VA's implementation 
actions and is reviewing the plan provided to Congress under 
the Forever GI Bill Housing Payment Fulfillment Act.
    Mr. Chairman, Madam Chair, and Members of the Subcommittee, 
this concludes my statement. I would be happy to answer any 
questions that you may have.

    [The prepared statement of Michael Missal appears in the 
Appendix]

    Mr. Levin. Thank you Inspector General Missal.
    Mr. Schnitzer, you are now recognized for 5 minutes.

                   STATEMENT OF JAY SCHNITZER

    Dr. Schnitzer. Good morning, Chairman Levin, Chairwoman 
Lee, Ranking Members Bilirakis and Banks, and distinguished 
Members of the Subcommittees. Thank you for the opportunity to 
testify before you today on matters relating to the 
implementation of sections 107 and 501 of the Colmery Act, also 
known as the Forever GI Bill. MITRE very much appreciates the 
opportunity to share our insight from our work on this critical 
program.
    My name is Jay Schnitzer. I am a vice president and the 
chief technology officer with The MITRE Corporation. I would 
like to make a brief statement and submit my full remarks for 
the record.
    MITRE is 501(c)(3), not-for-profit corporation. We are 
chartered to operate in the public interests, which includes 
operating federally funded research and development centers, 
FFRDCs, on behalf of Federal agency sponsors. We currently 
operate seven FFRDCs sponsored by a variety of Federal 
agencies.
    The Department of Veterans Affairs cosponsors one of these 
FFRDCs, the MITRE-operated Center for Enterprise Modernization. 
From our experience, I think it is important to stress to the 
Committee right up front that the kinds of issues VA 
experienced in implementing the Colmery Act last year are 
common to agencies attempting to execute highly complex, 
integrated-mission requirements and to modernize their systems 
and processes to address new needs.
    MITRE's involvement with the Colmery Act began on September 
28th of last year when we were engaged by the Office of 
Information and Technology, OIT, to perform an independent 
technical assessment, ITA, of VA's implementation efforts.
    The Colmery Act effort involves the implementation of a 
major system, a long-term solution--LTS--as well as updates to 
many other systems involved in administering GI Bill benefits. 
The focus of the independent assessment was to identify issues 
related to the delayed delivery of the LTS and to recommend a 
resolution to the issues associated with completing and 
deploying the required system updates.
    The MITRE ITA team identified four systemic findings that 
were preventing rapid integrated capability delivery under the 
strategy then in place: First, technical and business leaders 
were not fully empowered to address issues, due to a lack of 
clear authority, priorities, and goals; second, work 
priorities, resources, and authorities for execution were not 
aligned for delivery; three, operations and processes within 
and across the Veterans Benefits Administration and OIT were 
not focused on the Colmery Act functionality; and fourth, data 
and tools were not integrated across LTS and the legacy 
systems.
    To address these findings, these systemic findings, we 
proposed 20 recommendations which VA fully accepted. As a 
result, the following major changes have been implemented: VA 
appointed the Under Secretary for benefits, USB, as the overall 
accountable business leader, aided by the chief information 
officer; VA chartered and established a new program governance 
team reporting to the USB, with business owner and OIT 
leadership; VA created a new program integration office 
accountable to the program governance team and responsible for 
definition, coordination, and management of functional, 
technical, and programmatic activities across VA; and VA 
selected an end-to-end systems integrator to coordinate 
planning, development, and integrated testing of all systems 
associated. As is typical for any complex integration effort, 
the program is not completely without risk, given the many 
systems and organizational components involved and the many 
interdependencies.
    But VA now has in place an integrated program team that is 
deliberately managing to that risk by identifying the critical 
path activities and the decisions needed to succeed and the 
contingencies necessary to mitigate the risk and they are 
acting proactively.
    In closing, I would like to note that of MITRE's roughly 
8,500 personnel, some 30 percent are veterans. There are few 
duties that our employees consider more noble and consequential 
than honoring, through our support for VA, the service and 
sacrifice of our Nation's men and women in uniform.
    On behalf of the entire MITRE team, I greatly appreciate 
the opportunity to come before you today, and I look forward to 
your questions. Thank you.

    [The prepared statement of Jay Schnitzer appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Schnitzer. I will now recognize 
myself for 5 minutes to begin the question portion of this 
hearing.
    Dr. Lawrence, you and other officials have testified while 
VA will not seek reimbursement for veterans who overpaid 
because of the implementation issues, you will retroactively 
correct underpayments. What are the current efforts to 
understand how many veterans were underpaid and by how much and 
when is VA going to be able to make them whole?
    Mr. Lawrence. Yes, sir, that's correct. We are in the 
process of implementing the solution that will go into places 
on December 1st. When we have done that, we will have a better 
estimate for who exactly we have to make whole and what that 
number is. Right now, we are developing--and I believe we 
shared this in the briefings we offered to your staff--the plan 
to do that. Our intention is to do it, as exactly as members 
have spoken already, as soon as possible.
    We appreciate the situations veterans are in. We want to do 
sort of a couple of things simultaneously; one, get the system 
in place and do it right; two, get the spring going; and, 
three, get everybody reimbursed the way you described. We will 
have a plan in detail as this comes about and we will brief 
your staff and you on it when we finalize it. It will include 
communication and clarity so there are no surprises. It will be 
intentional, and it will be the subject of our webinars and our 
communication with everybody.
    And we will need to do this because we will need the 
schools to provide us information. We will need a lot of things 
going in the right direction, but we appreciate the situation 
and want to make sure it is done exactly the way I described.
    Mr. Levin. Thank you, Under Secretary Lawrence. You know, I 
wanted to reaffirm that while the tone of these hearings 
sometimes can get contentious, it is our intent to work in a 
collaborative fashion with the VA and partner and serving our 
veterans.
    The lack of clear and forthcoming communication from the 
VA, though, seems to indicate that the relationship may be 
somewhat strained. My understanding is it took a lot of 
cajoling for VA to provide documents related to the new 
Accenture contract and although VA did finally provide those, 
it did so 3 days before this hearing.
    So, I wanted to ask you, sir, how can Congress better 
partner with the VA to ensure success and what specific steps 
will the VA take to be more clear and forthcoming with 
Congress?
    Mr. Lawrence. Certainly. And we appreciate that and notice 
the tone in this conversation, too. And, you know, to quote 
somebody famous, we feel your pain, because this is the 
situation, we are all in. Most of us are veterans up here. We 
understand this, and ironically, the person who leads the MITRE 
team that works with us day-to-day used the GI Bill and he has 
very torn by that.
    I think the example of providing the contract to you--I 
looked into this one--is not representative of the 
communication we are having with you. I am not an acquisition 
person or a lawyer, sir, so I don't understand the 
complexities. It frustrated me, too, when I heard about that, 
because it was our intention. We knew going into the reset we 
would have to be the most transparent we have ever been and 
then some to re-win your level of confidence with us.
    And so, the briefings, the communication, that is our 
intention. Again, I think that was an exception, and to the 
extent I wish I were responsible, I would apologize for it, but 
I don't quite understand where that is. But we will try to do 
everything we can, so you know about it and answer your 
questions so that you feel informed.
    Mr. Levin. Thank you for that.
    You may be aware, we had the principal deputy Under 
Secretary testify before the Subcommittee, Ms. Devlin, and she 
said with 100 percent certainty--so, we actually asked her on a 
scale, I think we asked her on a scale of 1 to 10, she said 10 
out of 10, certainty that this issue was going to be resolved, 
that the IT-related issues, the correct payment of benefits, 
the, you know, correct zip codes for our veterans, et cetera, 
that would all be fixed by the end of the year. Again, she said 
10 out of 10.
    Do you share that opinion?
    Mr. Lawrence. Absolutely.
    Mr. Levin. That is good--10 out of 10?
    Mr. Lawrence. Ten out of ten.
    Mr. Levin. All right. I wanted to turn to the Accenture 
contract. VA has spoken of the requirement that Accenture 
produce a fully operational system. In some terms, it makes it 
seem like all the risk is on Accenture. From a contractual 
standpoint it may be, but ensuring that student veterans 
receive the benefits they deserve require that VA also be 
completely invested in the development, testing, evaluation, 
and operation of the system.
    Dr. Lawrence, how are you ensuring that this contract goes 
well and what, if anything, are you doing differently than the 
previous contract?
    Mr. Lawrence. Certainly. Well, several different things, 
but let me answer your first question--first part of your 
question first, which is the monitoring of the contract. So, we 
work closely with our acquisition folks who run the acquisition 
and to include monitoring the contracts. So, they are very kept 
abreast of the activities they are required to do.
    The contract was actually led by our colleagues in OIT. The 
integration of this team, together, they watch and do regular 
reviews, as well, as we do regular reviews as a broad team in 
terms of the activity, the schedule, the scope, and the like. 
We have not forgotten the lessons from the fall where, you 
know, perhaps our inability to aggressively monitor the 
contract came back and caused us problems. So, we certainly 
don't want that to happen again.
    More broadly, though, your question about what is 
different--and I know this came up in a couple of the 
statements already--I would point to three things that are 
different than the past. One was, as everyone has pointed out, 
the lack of an accountable official. So, now, we have a single 
accountable official, a role that I asked the secretary to 
appoint.
    But there are two other things that are less subtle that I 
want to draw your attention to. The first one, related to the 
first point was, the accountable official enables crisp 
governance--timely decisions, resolution of conflict, 
realignment of things that are unaligned.
    The second was hiring MITRE to be the program integrator. 
This is, if you will, a super program manager to keep everybody 
on track and dispute decisions where technical experts are, 
perhaps, in conflict. MITRE's expertise as an FFRDC enables 
them to bring vast knowledge of how other government programs 
work, as well as technical expertise to this role. This is a 
big difference.
    And, finally, a hiring a world-class systems integrator and 
software development firm, what were learned last time was it 
was a systems integration discussion. The last statement by 
Congressman Banks about the different systems is exactly what 
we are talking about, which is why a systems integrator was 
needed.
    So, those three things give us a level of confidence that 
we better understand the problem and our approach to it is on 
track.
    Mr. Levin. Thank you. I have plenty more questions, but so 
do my colleagues. I want to be respectful of them as well, so I 
would now like to recognize my friend, the Ranking Member of 
the Subcommittee, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Dr. Lawrence, one of the most comment complaints we 
received last fall was that the VA was not appropriately 
communicating with the schools and students regarding payment 
delays. We also received complaints from schools over the last 
of communication on how to expedite hardship claims for student 
veterans who relied heavily for these payments to survive.
    What lessons have you learned about communicating and you 
can give me your opinion on what I just said, too, but what 
lessons have you learned about communicating with students and 
how do you plan to remain in touch with veterans whose monthly 
housing allowance will draw up when payments are corrected to 
follow the law on January 1st, 2020?
    Mr. Lawrence. Certainly. A lot of lessons, quite frankly. 
The pain you experienced was the pain we felt, too, of people 
communicating with us and explaining the financial hardship 
situations they were in. We took a lot of steps to communicate 
the numbers to call. We had regular phone calls with the VSOs. 
But in many cases, it fell short, as you pointed out.
    We intend to do more of that. Just so you know, part of 
what I did last fall was I held a student roundtable at Texas A 
& M, talked with students directly. I will go to Pittsburgh and 
do the same thing at a community college in a couple of weeks 
to better under that.
    But we intend to do more. We intend it to be redundant and 
a lot. But not only with the students, with the schools, we 
understand their situation and we know what we are going to do 
come December and beyond, is going to put requirements on them 
to provide us information all the way back to August of last 
year. So, we know we are going to have to communicate. We have 
enlisted the VSOs. We have enlisted everybody to try to let 
them understand where this will be and how it will play out for 
them, how they can communicate situations that may cause 
difficulties in their life and what we can do to expedite it.
    We want to make sure that as we do the reset, everybody 
understands their role and they should have none of these 
problems. Now, that being said, yes, will somebody not get the 
memo, not get the email. I can't guarantee it. I will probably 
enlist the help of you and your staff. I know people have been 
good about communicating to us through that--look in on this 
and do some of these things.
    So, we will try as hard as we can possibly imagine to use 
the multiple forms of media, the multiple channels available to 
us to let everybody know the situations they are in and what 
they need to do.
    Mr. Bilirakis. And then you need to communicate with the 
members of Congress, as well, so we can get the word out.
    Mr. Lawrence. Oh, yes, please.
    Mr. Bilirakis. It is very important for--
    Mr. Lawrence. Yes, thank you. We will do a lot of that.
    Mr. Bilirakis. Okay. Dr. Lawrence, again, in the contract 
documents recently provided to the committee, Booz Allen 
Hamilton submitted a response to VA's request for information 
associated with IT reset. In this response, they indicated they 
could complete the IT modifications for sections 107 and 501 by 
July 1st, 2019. They also indicated that VA's changes regarding 
schools' zip codes would--and I quote, ``Not have the intended 
impact of simplifying the implementation and that they believe 
those rules had already been coded into LTS.''
    What is your view of Booz Allen Hamilton's assertions?
    Mr. Lawrence. I am unfamiliar with the document that you 
are referring to and would very much appreciate a chance to 
look at it in some detail to deal with it in detail. But I will 
tell you it was a thoughtful analysis that went into the 
decision to reset and the approach for it.
    We had concluded that we needed, as I said a second ago, a 
systems integrator to solve the problem of all the different 
things and the software development, as just witnessed by what 
we talked about. I repeatedly appeared before the Committee and 
in Members' offices explaining we did not understand what date 
we would ever be able to complete the software.
    Repeatedly we came up short. The contractor was unable to 
identify how we would ever get this resolved and I was, quite 
frankly, embarrassed to sit in front of you in November of this 
Committee of last year and not be able to provide a date when 
it would be done. We were approaching the problem in the wrong 
way and we needed a reset, which is what we did, and we needed 
better expertise to help us, different expertise to help us 
with The MITRE Corporation and with the world-class systems 
integrator.
    Mr. Bilirakis. All right. Very good.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Levin. Thank you. I would like to now recognize 
Chairwoman Lee for 5 minutes.
    Ms. Lee. Thank you, Mr. Chair.
    As the chair of Technology Modernization, I am looking at 
the implementation of IT systems across the VA; most notably, 
the largest implementation, the electronic health record 
modernization.
    As I said in my opening, lack of governance is a common 
problem and I see stove piping happening where OIT has a piece 
and the VHA has a piece, yet, the program office is supposed to 
be the middleman between the two. But this isn't solving the 
problems longstanding at the VA like the technical debt, the 
outdated infrastructure, or change management among clinicians. 
There is also stove piping in the case of the Forever GI Bill 
implementation where both IT and VBA had a role, but no one 
seemed to be in charge.
    Mr. Gfrerer, have the problems with implementation of the 
Forever GI Bill caused the VA to reevaluate its approach to 
system implementation?
    Mr. Gfrerer. Chairwoman, I will speak for myself and say 
that those experiences absolutely have informed the process. As 
we look at the lessons learned around Colmery, I can tell you I 
was just talking with my head of development and operations 
today and with Rob Orifici, our program manager, and he said we 
are absolutely pulling those lessons learned from how this team 
is working together across VBA with the systems integrator, 
with MITRE, and with the vendor, with Accenture, and there are 
a lot of good lessons learned and shared. And going forward, we 
look to port those across to the other programs that you 
referenced.
    Ms. Lee. That is good to hear. Thank you.
    MITRE has made some recommendations regarding how program 
management should be structured, and I want to understand those 
recommendations a little bit better and how the VA is 
responding to them.
    Dr. Schnitzer, you recommended that the VA establish this 
Colmery Act champion to serve as a chartered and empowered 
business leader across the VBA and OIT. What type of leader 
should fill this role?
    Dr. Schnitzer. Thank you for the question, Madam 
Chairwoman. I think the type of leader is somebody who accepts 
that responsibility and has the authority within the 
organization to work across all of the different components and 
be effective. The Under Secretary is a perfect example of such 
an individual.
    Ms. Lee. Thank you.
    Dr. Lawrence, you have designated a champion?
    Mr. Lawrence. I am that person, ma'am.
    Ms. Lee. You are?
    Mr. Lawrence. Yes, ma'am.
    Ms. Lee. Okay. Do you believe--Dr. Schnitzer, you also 
recommended creating an end-to-end chief system integrator. 
What is the value of that role?
    Dr. Schnitzer. So, the integration part of the project 
addresses the problems that have been stated previously, which 
is working on one piece of software in isolation without 
understanding all the connections to it both, inputs and 
outputs, and the mutual dependencies won't solve the problem. 
So, having the contractor now as a systems integrator who is 
looking at all of that in a cross- functional way is essential 
for success, and that is a key difference for the program 
today, as opposed to prior to the recent.
    Ms. Lee. Thank you. You also have a recommendation to 
create a lightweight governance counsel. I am a little--I would 
just like some clarification about ``lightweight'' and, also, 
can you explain how it should operate.
    Dr. Schnitzer. So, lightweight just refers to the minimum 
number of people on it that are necessary to get the job done 
so that it is not overly bureaucratic and so that scheduling 
meetings doesn't get overly complicated because you are trying 
to bring in too many people into each meeting.
    And then the effectiveness is measured on how fast can 
issues that arise, as Dr. Lawrence mentioned, how fast can they 
be adjudicated and move on. And I would say that from our 
perspective, what we have seen in the past few months is that 
issues that previously could take weeks or even months are now 
being adjudicated and dealt with effectively in days and 
sometimes hours, and that is exactly the outcome desired.
    Ms. Lee. Great. Thank you.
    And I yield my time. Thank you.
    Mr. Levin. Thank you.
    I now recognize Mr. Meuser for 5 minutes.
    Mr. Meuser. Thank you, Mr. Chairman.
    And thank you to all of you. It is nice to see all of you 
again and, certainly, thank you for your service. I do have 
some experiences in implementation of informational technology 
systems, as well as with Accenture. I served as revenue 
secretary for the Pennsylvania Department of Revenue and we had 
an over-one-hundred-million-dollar contract with Accenture, so 
I have some experiences there, and I wanted to ask you about 
that contract some.
    Is the contract based upon Accenture gets paid for the work 
accomplished, for the work that is performed, Dr. Lawrence?
    Mr. Lawrence. So, by that, are you asking is it a time-and-
materials contract?
    Mr. Meuser. Yeah, for accomplishing certain goals and 
implementation of the--and the integration that takes place, do 
they then get paid upon it being completed?
    Mr. Lawrence. It is a fixed-price contract, so let's 
establish that part.
    Mr. Meuser. Okay.
    Mr. Lawrence. And I am not exactly certain--again, I am not 
versed in the details of how they get paid--
    Mr. Meuser. All right.
    Mr. Lawrence. --so, I am not--do you know, Rob?
    Mr. Orifici. It is a firm fixed-price contract and it is 
outcome-based. So, they will be paid based off of their 
performance to meet the goals set forth to establish 
functionality to implement Colmery sections 107 and 501 for 
the--
    Mr. Meuser. Okay. Great. And have they set such timelines 
for you?
    Mr. Orifici. We set up the initial timelines in terms of 
our goals in reaching December 1st, 2019. They have provided 
plans and they have provided their increments in order to 
arrive at the dates and give us adequate time to have the 
solution in place.
    Mr. Meuser. How have they done so far?
    Mr. Orifici. They have been doing very well so far and they 
have been--brought the correct people to provide us with the 
solution needed.
    Mr. Meuser. And that was my next question. The best thing 
that they provide is their human resources and they can give 
you an ample amount. They can give you a higher amount, so as 
we are assured that we hit the deadlines or they can lag 
behind, which causes delays.
    Where would you say you are as far as their human resources 
allocation?
    Mr. Orifici. Thank you for that question. In terms of their 
resource's allocation, they have quickly brought, I would say, 
very senior people to bear on this effort. From day one, as 
soon as the contract was signed, they had resources onboard and 
were meeting with us to arrive towards a plan for getting us to 
a solution and they have surged very quickly, and we have been 
onboarding very fast in terms of having the right people to 
bear.
    They have also brought people with former knowledge of the 
solution into play, and so we are looking very good in terms of 
their human resources allocation.
    Mr. Lawrence. Sir, and if I might add, I meet weekly with 
the managing director from Accenture who worries about this 
contract and the broad VA portfolio. I have access to the chief 
operating officer of their Federal practice who gave me his 
card and phone number. I can call whenever if those things are 
not--I am attuned to your concerns on that.
    Mr. Meuser. Great, yes. I did have a very successful 
relationship with them. I will also add, though, the 
proverbial, squeaky wheel gets the grease, and I would also 
suggest don't hesitate to go to the top. I mean, this is 
obviously a high priority for them and a high priority for our 
government and our country.
    Mr. Missal. Congressman, I can assure you Dr. Lawrence and 
I both were on the commercial side. We know those levers to 
press.
    Mr. Meuser. All right.
    Mr. Missal. I wanted to reassure you on that.
    Mr. Meuser. Very good. And in my remaining time, Dr. 
Lawrence, Secretary Lawrence, the MITRE findings here, you 
mentioned about the accountability, so that is terrific. And 
these are not atypical findings, I wouldn't say, and they are 
also curable. So, secondly, where he mentioned the respective 
pieces were not--we are working independently, not working 
together, would you say that is something that you feel 
confident in bringing together?
    Mr. Lawrence. Yes, absolutely. I mean, part of the 
conversation setting up the PIO was having an integrated team, 
standalone entity in our organization, enlisting the resources 
from OIT who are dedicated to working on this--not drawn in 
different directions--focused on this. We have 21 FTEs from OIT 
who work with us on this. It is clear focus about what they are 
doing. Other assignments have been reduced or eliminated and 
this is what we are working on.
    From VBA, from the benefits, we have 10 people. This is 
their full-time job. This is what we do. So, it is a very clear 
focus. It is an integrated team. We spend a lot of time working 
together. We are in the VBA headquarters building. This is what 
they are doing.
    Mr. Meuser. Yes, so, all involved need to feel ownership, 
equal ownership, absolutely. That is very good to hear.
    And, Chairman, I yield back. Thank you.
    Mr. Levin. Thank you, Mr. Meuser.
    I now recognize Mr. Pappas. He has stepping out. It is your 
turn.
    Mr. Pappas. I will yield my time, Mr. Chairman.
    Mr. Levin. Terrific. Thank you, Mr. Pappas.
    I will now recognize Ranking Member Banks for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Dr. Schnitzer, I am very concerned about the VA's inability 
to test the software code that its contractors produce against 
all of the relevant IT systems. Of MITRE's 20 recommendations, 
the very last one that VA expects to implement is establishing 
common development and testing environments.
    Do you agree with that under ideal conditions that this 
would be one of the first steps completed?
    Dr. Schnitzer. So, under ideal conditions, it could be one 
of the first steps completed. On the other hand, we live in the 
real world where some things depend on sequences and you can't 
change that, and this is one of those. So, there is no 
practical or physical way to change the sequence presented 
before us today. So, it has to be number 20, and we have to do 
the best we can with that.
    However, it can be mitigated. So, you are absolutely right, 
the integrated test doesn't occur until the very end, but 
individual tests along the way in other environments are 
occurring all the time, and that reduces the risk of the final 
test.
    Mr. Banks. Do you agree with that?
    Dr. Schnitzer. Agree with which?
    Mr. Banks. And how important is that--do you agree with 
what the gentleman just said and how important is that testing. 
I believe they call it regression testing.
    Dr. Schnitzer. Do I agree that--
    Mr. Banks. No, I am asking Mr. Missal.
    Dr. Schnitzer. Oh, I'm sorry.
    Mr. Missal. We agree that the testing MITRE did is very, 
very important. We did not get into the technical side of this, 
given that MITRE had already done that. But we have seen 
similar issues with the testing in other systems that we looked 
and other reports that we have done, including one on VBMS and 
some other systems.
    Mr. Lawrence. Congressman, if I might, one of the other 
challenges--
    Mr. Banks. I have got a lot of ground to cover. At some 
point, I will get to you, I promise.
    But Dr. Schnitzer, MITRE performed a review of Booz Allen 
Hamilton's software code and found it to be generally high 
quality. Is that an accurate characterization?
    Dr. Schnitzer. Yes, it is.
    Mr. Banks. Okay. In our last Forever GI Bill hearing in 
November, the Booz Allen Hamilton witness insisted his company 
had delivered good software code based on VA's requirements. VA 
announced its intention to replace Booz Allen in less than a 
month later.
    Given the fact that VA still does not have pre- production 
testing environments, can anyone say for sure whether Booz 
Allen's code would have worked, Doctor?
    Dr. Schnitzer. We have fairly good evidence that it would 
not have because of the lack of integration. So, even though it 
was good code, in the functional environment, it would not have 
succeeded, and we are very confident of that.
    Mr. Banks. Have you shared that evidence with the 
committee?
    Dr. Schnitzer. We have shared it with VA.
    Mr. Banks. But not with the committee? We request that you 
would share that with us, as well.
    Dr. Schnitzer. Okay.
    Mr. Banks. Okay. Mr. Gfrerer, Accenture is supposed to 
determine what of Booz Allen's software code it should reuse. 
How will they accomplish that and when?
    Mr. Gfrerer. Congressman, they have access to the code, as 
you have kind of established already. As was mentioned 
previously, the contract vehicle is on a firm, fixed price, and 
so there is ever incentive to use existing code where it would 
be supported.
    So, that code is the property of the Government. Accenture 
has access to it. As they find that there is value in it, they 
may use it.
    One of the challenges around that, though, is the user 
requirements and, you know, eliciting the right user 
requirements, which I believe in MITRE's ITA, they found as one 
of the problem areas. And so, it is really hard to reuse 
substantial amounts of code when they may have been coded for 
different user requirements.
    Mr. Banks. Okay. Under Secretary Lawrence, I believe VA 
learned lessons from last year and I think you now fully 
understand the task in front of you, but the situation is not 
any more favorable, in fact, it seems almost exactly the same 
and you have less time than what you had before.
    Would you agree that if VA is able to implement MITRE's 10 
remaining recommendations by the deadlines that you set, that 
that would give you just enough time to test Accenture's code, 
correct any problems, and implement the remainder of the law 
with minimal schedule cushion?
    Mr. Lawrence. Generally, but I would push back on your word 
``just,'' sir. I think the answer that you have gotten before 
about how we are going to test en route is not just, but I 
think your point is a good one. The timeline is short, and we 
need to make sure that when we go into operation, it is tested 
and ready to go.
    Mr. Banks. Okay. Mr. Chairman, I yield back, and I reserve 
my following questions for the second round.
    Mr. Levin. Thank you, Mr. Banks.
    I would now like to recognize Ms. Luria for 5 minutes.
    Ms. Luria. Thank you, and thank you for taking the time to 
update us on this today.
    I want to follow up on Chairman Levin's question, because I 
am a little bit confused after that question. I recall that in 
November, Secretary Wilkie said that, ``Once the VA is in a 
position to process education claims in accordance with the new 
law, each and every beneficiary will receive retroactively the 
exact benefits to which they are entitled under that law.'' So, 
you have echoed that, that they will be getting appropriate 
benefits. If they were overpaid, you won't be recouping the 
amount.
    But what I gathered from Chairman Levin's question and your 
response is that there's really not a system that you are 
tracking. Do you fully understand the scope of it? Do you have 
a system to track the differential between what the students 
received and what they should have received and the amount that 
they are entitled to receive under the GI Bill? Do you know the 
total price tag of that, how many students it is, and who they 
are?
    Ms. Bogue. Thank you. So, that is a two-part question. So, 
first, there is section 501 of the law, which is dealing with 
the DoD rates, the cap rates. Once we flip the switch on 
December 1st, we will be able to know automatically how many 
students are impacted from an overpayment standpoint.
    But for the second part of that, for the section 107 piece, 
as it relates to the monthly housing allowance of where the 
student spends the majority of their time, that will be 
dependent on the schools resubmitting enrollment documents. It 
won't be until all schools have recertified students back to 
August 1st of 2018, that we will really know or realize the 
overpayments and underpayment situations associated with that.
    Right now, we have asked schools to track students from 
August 1st of 2018 to tell us exactly who may be in the 
position of not attending the majority of their classes at the 
main location, and when it comes time, we will allow them to 
recertify those students after December 1st. But the first 
phase is--
    Ms. Luria. Really, December 1st is when you need the 
schools to give you data. So, December 1st is not when 
veterans, when our constituents can expect to actually have 
this fixed if they go online?
    Ms. Bogue. So, what will happen on December 1st when we 
flip the switch, two things will happen. The first piece will 
be the DoD rates will kick in; that will be the first piece. 
All spring 2020 terms will be made whole from that perspective. 
So, any enrollment that comes in for spring 2020, we process in 
accordance with the section 107 and 501 rules. The piece that 
we still need to work on, in coordination with schools, will be 
the piece of going back to correct records from August 1st of 
2018 up to December 1st of 2019.
    Ms. Luria. Okay. So, just to summarize all of that, you 
don't actually know the scope of the problem yet?
    Ms. Bogue. We have a sense of the scope of the problem. We 
are actually working with schools right now. I will say that we 
are actually working with the top 10 largest GI Bill 
beneficiary schools to figure out how many records will they 
have to go back and correct come December 1st.
    Ms. Luria. Okay. Thank you.
    Ms. Bogue. So, we are building a plan right now.
    Ms. Luria. Okay. I don't want to repeat myself a third 
time, but you really don't have any idea of how many students 
this has affected at this point in time after the discussions 
we have had on this? But you are fully confident that by 
December 1st, that you are going to have it fixed?
    Mr. Lawrence. I think you uncharitably described our 
situation in your first part of your question. We understand 
the number of students. We understand where they were enrolled. 
We understand what the consequences are. We just can't give you 
an exact number yet because we have to do the math and have to 
have the system set up.
    We know exactly what is going to happen and when that 
happens, and Charmain tried to explain that. We will do the 
recomputations. We will go back and adjudicate and communicate 
as soon as we can. That is our intention to do that. We don't 
have the precise number right now because the different 
variables will have to be nailed down.
    Ms. Luria. And so, will that require interaction by a 
person, by a staff member of the VA with each student 
individually? And if so, do you have adequate staff to address 
that?
    Ms. Bogue. So, there is multiple parts. One, we will have 
to have interaction with the schools in order to recertify. 
Also, we will need to work with students to make sure they are 
educated about exactly what their benefits will look like, come 
spring 2020.
    So, we know the schools are the front lines, so we are 
actually working with schools on a communications toolkit so 
that way, they can be able to educate students about the exact 
calculations of what they should expect to receive when spring 
2020 rolls around.
    Ms. Luria. Okay. Thank you.
    I yield the remainder of my time.
    Mr. Levin. Thank you, Ms. Luria.
    I now recognize Mr. Watkins for 5 minutes.
    Mr. Watkins. Thank you. The President's budget for fiscal 
year 2020 anticipates a drop in the number of direct employees 
processing education claims, but you are expecting--the budget 
also predicts an increase in the number of calls and claims. 
So, how will this $6.1 million decrease in the education 
services' account affect VA's ability to ensure timely response 
and payment to veterans?
    Ms. Bogue. So, there is no impact in terms of processing 
claims right now when it comes to our President's budget. I 
will say what we are looking at right now is the impacts of 
going back to correct all records for section 107, in 
particular, and the workload associated with that. And we are 
working with leadership in terms of what additional resources, 
if any, will be needed when it comes time to go back and 
correct records.
    Mr. Watkins. Thank you.
    I yield back my time.
    Mr. Levin. Thank you.
    I would now like to recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Mr. Chairman.
    Under Secretary Lawrence or Ms. Bogue, whoever wants to 
answer this, I just want to confirm. I think this is clear, but 
if someone in my state of Pennsylvania is enrolled in Penn 
State, and let's just assume for the purposes of this question 
that the main campus at State College probably has higher 
allowances than Penn State Beaver, which is a satellite campus 
in my district. If they have been going to Penn State Beaver, 
but getting the State College rate in 2018 and 2019 before 
December 1st, are they going to be hit up for an overpayment 
when December 1st happens?
    Ms. Bogue. No, they will not. Anyone who, once we roll out 
the system, any overpayments will be written off by VA, because 
it is not the fault of the student.
    Mr. Lamb. Thank you. I just wanted to make sure of that.
    Do they know that? Has that been communicated to students?
    Ms. Bogue. We have direct communication in terms of, we 
have done email campaigns to students to let them know that 
when the time comes for December 1st, they will not be 
responsible for any overpayments associated with sections 107 
and 501. And also when we flip the switch on December 1st and 
we start sending out letters to students about their new 
payments, we will have information in that particular letter 
that will state that they are not responsible for the 
overpayments as well.
    Mr. Lamb. Thank you. That is very useful.
    I think one of the things that, at least we heard the most 
about in my office when this happened last year, was, I mean, 
people were frustrated by the glitch, but they were even more 
frustrated, I think, by the lack of communication. Can you 
spell out for us maybe a little bit more concrete steps that 
you have taken to address that part of it.
    Because, unfortunately, dealing with technology, this 
probably won't be the last time this happens in some way, so 
how has the VA addressed the ability to communicate in these 
unexpected situations?
    Ms. Bogue. Thank you for that question. So, I will state 
that we have done several things since the past fall. And one 
thing is we have done, like I said, email campaigns to 
students, but also we have set up veteran webinars for 
students, as well, so that way they can join in and we can talk 
about what is coming down the pike, and we will continue that 
dialogue.
    Also, we understand schools are the front lines, so we are 
trying to make sure that schools have the necessary information 
to educate students earlier in the process versus waiting until 
after December 1st for students to figure out what is going to 
happen in the spring.
    So, we are trying different modes in terms of communication 
with students between the email campaign, between the letters 
that we send out, as well as the veteran webinars, as well as 
social media to educate students about the changes that are 
coming down the pike.
    The other piece that I would add is that we have the GI 
Bill comparison tool. That tool is a very useful tool. It 
actually displays schools, VA-approved schools on that tool and 
it actually has a GI Bill calculator on that tool. Students can 
actually enter in the location, the actual locations of the 
campus they are attending, and they will actually see the rate 
that they would receive in the spring of 2020 now.
    Mr. Lamb. Excellent. Thank you for that.
    And I know Dr. Lawrence, you mentioned that you are doing 
some traveling to try to get the word out, too. I am thrilled 
to hear that you are coming to Pittsburgh. So, please let our 
office know if we can be of assistance in attracting folks 
there.
    I also just wanted to remind you that at our last hearing 
together, we had talked a little bit about training for claims 
adjudicators on the appeals modernization and my office sent 
you a letter on April 12th, so just coming up on a month ago 
with some pretty specific questions about the AMA 
implementation training and how it affected our claims 
adjudicators back home. So, I just wanted to remind you of 
that, and we will be expecting a response when you can provide 
one.
    Mr. Lawrence. I appreciate that. And just so you know, I 
went back and talked to the RO leader in Pittsburgh about your 
exchange that we had and the information around the training. 
So, I will look in onto the letter, too.
    Mr. Lamb. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Lamb.
    I now recognize Mr. Bergman for 5 minutes.
    Mr. Bergman. Thank you, Mr. Chairman. And thanks to all of 
you for being here.
    We know that what you deal with is not just simple math or 
easy. There is a lot of everything from changing technology to 
bureaucratic tools that are in place that may or may not be as 
efficient as we would like them to be when we are making our 
decisions.
    Dr. Lawrence or Mr. Gfrerer, I have a question about the 
Accenture contract documents that VA provided to the committee. 
Four companies provided--they submitted proposals. Accenture's 
proposal was initially rated ``susceptible to being made 
acceptable.'' VA allowed all four companies to revise their 
proposals to correct any weaknesses and shortcomings in those 
proposals and each of the companies did.
    In the second round evaluation, Accenture's rating went up 
to ``outstanding'' while no other company's rating changed. VA 
awarded the contract to Accenture, despite it proposing the 
highest price, which was a jump up from the original pricing; 
in fact, two of the companies pretty much stayed at the same 
pricing. One of the other companies bumped up a little bit, but 
Accenture had the largest increase. But anyway, Accenture, 
despite it proposing the highest price and having the worst 
past-performance rating was awarded the contract.
    Can you offer any explanation as to exactly what happened 
there with Accenture being the only one to make the big jump 
when I am guessing all four of the companies had the 
opportunity to upgrade their proposals?
    Mr. Lawrence. Certainly. Mr. Gfrerer and I served as 
technical advisors to the evaluation process. We were in no 
decision-making role; merely, to be informed. We had two 
interactions with the acquisition-decision authority, if you 
will--the group who was running the process you just described.
    The first interaction was when they shared with us the 
scores for four companies, four entities--these were blacked 
out--we knew them as A, B, C, D, and they revealed the scoring, 
which as you indicated, that some were at a certain level--some 
we are at a certain level. Their recommendation to us was that 
we engage in a round of questions and answers with everybody to 
provide them a chance to fix the proposal shortcomings they 
had. It was a recommendation to us. They said, this is what we 
would normally do, and do you have any questions? It was not a 
decision for us to make. It was simply a recommendation of what 
they were going to do in the next step, and they informed us.
    They said it will take some more time, but this is what we 
would normally do in an acquisition of this thing. So, we said, 
sure. We don't have a decision. We understand. We appreciate 
you telling us what it will do for the timeline we are under if 
we do that.
    What is likely to happen, we asked: Some will improve; some 
will not; some will change their price. Exactly what you 
described happened.
    Mr. Bergman. Uniquely, the--and I don't know what the 
relative norm here is--but let's say in this case, okay, there 
could be an increase in price, but over 10 percent? What kind 
of things change in that upgraded proposal, again, that made 
them stand out as outstanding?
    Mr. Lawrence. Sure.
    Mr. Bergman. It is just interesting.
    Mr. Lawrence. So, I understand your question. Neither Mr. 
Gfrerer nor I will be able to answer that. We were not privy to 
the information. We were privy to the scores at the end. I 
can't recall--
    Mr. Bergman. So, should we either convene a hearing for the 
folks who made the decision or how do we find out? Again, my 
Marine Corps background, military background as a commander 
tends to--I look into the decision-making process to make sure 
that we are using criteria across the board that does not 
either, accidentally or on purpose, play any type of what could 
potentially be construed as favoritism.
    Mr. Lawrence. No, I don't think that existed in this 
process. What the criteria was, and it was stated in the 
request for information, as well as the request for proposal, 
it heavily weighted the technical solution. So, at the end of 
the question-and-answer period, the total compilation of the 
score of the winner, in this case, Accenture, was greater than 
the scores of the other.
    I forget the details exactly--but perhaps this is in the 
documents that you have--their technical part of their score 
had increased so much more that it offset, I believe, their 
lower past-performance score that you made reference to. The 
net of it was, using the criteria the acquisition people ran, 
their score was greater than the others, hence the award.
    Mr. Bergman. Okay. Thank you.
    And, Mr. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Bergman.
    I would now like to recognize the Ranking Member of the 
Veterans Affairs Committee, Dr. Roe, for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman.
    Last--first of all, I would like to thank the panel for 
being here and, Dr. Lawrence, thank you for the work on the 
board. I think the appeals modernization is going pretty well 
from what I hear, and the way I can figure that out is if I 
don't hear anything, that is probably a good thing.
    So, last August, I was up in Springfield, Illinois, with 
Congressman Davis and we were rolling out the GI Bill and we 
had a group of educators around and at that point in time, we 
thought that it was going to be able to roll out and all the 
glitches at the--and we know the history of that--and, 
obviously, it didn't.
    And I met with the VBA team and the OIT team, along with 
you in my office on the 13th of September of last year, and 
where you thought the system would be ready to go in a matter 
of weeks and--that was your conclusion at that point. I guess 
your team had told you that in a few weeks you thought that 
would be up and running.
    But that is correct, I think, isn't it?
    Mr. Lawrence. I think at that time you were frustrated with 
me because I said I didn't know, but I might know in a few 
weeks.
    Mr. Roe. Okay. Well, let me ask--anyway, so we are on the 
same page there.
    The VA commissioned MITRE to do the independent technical 
assessment on the 28th of September. Did you think that you had 
a serious problem when you met with me or not and did something 
happen in between that two weeks that made you realize that?
    Mr. Lawrence. I think part of what we experienced was a 
sense of not knowing the scope of the problem and, hence, the 
desire to have MITRE bring expertise to better understand it. I 
know it is always frustrating to sit in front of folks doing 
oversight wanting to know exactly what is going to--and not 
know. Getting MITRE involved was to better appreciate the 
situation so that we could describe to you some facts, rather 
than some unknowns and senses.
    Mr. Roe. I think at the end of the day--and we are 
obviously in an important year, because we understand that the 
target date of full implementation is 1 December of this year. 
That is only 7 months away.
    What will be a good milestone to indicate that we are going 
to meet that deadline? Because I think there are a lot of 
people when young men and women enroll in college for the fall 
semester, obviously, they are still enrolling under the old 
system. So, when they start the spring of 2020, can we same 
with some surety now? We are not that far away.
    Ms. Bogue. So, we actually have two releases. So, we have 
built one, and we are working towards build one right now, for 
the solution that is supposed to be put in place for December. 
Testing for that first build will be completed in the June 
timeframe.
    Then, there will be a second build. After the second build, 
we will test a little bit--finish testing in the October 
timeframe and then we will have a good sense early October, 
whether that is ready for prime time for December 1st.
    We wanted to make sure that we built in enough cushion so 
that way, one, we can start really pushing out communications 
to students after the 1st of October and then, two, so that we 
could train schools on the new process for certification.
    Mr. Roe. So, next month, there is one build out that will 
be done and then in October, there will be a build?
    Mr. Chairman, if we could, I would love to have the 
Subcommittee follow up on that, because we certainly don't want 
a January 15th, when most of the young folks go back to school, 
hiccup, and it is not working. If we could have another hearing 
or something, I would really appreciate it.
    And Dr. Lawrence, can you provide us an update on the VTEC 
and TEC program?
    Ms. Bogue. So, thank you for that question. So, we are 
happy to report that early February, we actually went live with 
our VET TEC Web site, as well as our training provider 
application. Since that time, we have had over 30 training 
providers come in and apply for that program.
    We have approved 4 programs to date and the other 4--we 
have denied another 4 programs. The reason for those denials 
are usually because they don't meet the 2-year requirement to 
have a program in existence for two years.
    The other piece of that, the other applications that are 
remaining applications, they are in the works. They have 
submitted an application, but it was an incomplete application, 
so we are trying to work with those training providers to 
finalize that other piece.
    Then, a couple of weeks ago, about 3 weeks ago, we actually 
did a soft launch of the veteran application. From that soft 
launch, we had 300 veterans apply. We worked out some kinks on 
the application. We did a live launch, actually, last week on 
the veteran application, and since going with the live launch 
last week, we actually had over 1,100 veterans apply for that 
program. So, that is where we are right now with VET TEC.
    Mr. Roe. So, it is moving pretty rapidly then?
    Ms. Bogue. It has moved pretty rapidly, yes.
    Mr. Roe. Eleven hundred applications for how many slots?
    Ms. Bogue. So, we don't know exact slots. We know the 
dollars that are allocated per year, and based off the dollars 
allocated per year, we are estimating, based off the cost of 
some of these programs, somewhere between 800 to 1,100 veterans 
could potentially participate in this program per year.
    Mr. Roe. So, literally, we have already had--I will yield 
back in a second--we actually had more people apply than we 
have money to provide for the slots?
    Ms. Bogue. Potentially.
    Mr. Roe. Potentially, okay.
    Ms. Bogue. Potentially. One thing we noticed that some of 
those folks who actually applied for the program, their 
particular program that they applied for is not approved, so we 
are reaching out back to those training providers to state, 
Hey, this veteran is actually interested in participating in 
your program under VET TEC, so we would love for you guys to 
come in and be a training provider under the VET TEC program 
and to tell them through the application process.
    Mr. Roe. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Levin. Thank you, Dr. Roe. And I would be happy to 
discuss and accommodate that request. I think it is a good idea 
to do another hearing and we can have our Committee staff work 
with your staff to make that happen.
    We do have time for a few more questions if that is all 
right with your witnesses. I know a few of us have a few more 
questions.
    Under secretary--and I would like to recognize myself first 
for 5 minutes--Under Secretary Lawrence, I wanted to go back to 
your answer to Ms. Luria, where I think if I heard right, you 
said that you knew how many veterans were impacted by some of 
the IT issues, but you wouldn't specify how many. You wouldn't 
give us a number. I was wondering if you could help us square 
your statement.
    Mr. Lawrence. Sure. I think what I took away from the 
intent of her question was a sense of us not knowing exactly. 
So, what I tried to clarify is we do know the universe of 
veterans. We do know what happened. We do know what we intend 
to do.
    The precision around it, we still have to work out, as 
Charmain was trying to explain. First, we roll into effect 
December 1st, then we get the schools to do the information. 
So, I just wanted to make sure we were communicating exactly 
what we are doing, because I want to leave the impression that 
we have a plan to have a plan. We intend to brief you on it. We 
intend to describe it and we intend to communicate with the 
students so they understand exactly how it is going to be paid 
to them or written off. So, I just wanted to make sure that we 
are clear on that.
    Mr. Levin. But you don't know how many, specifically? You 
know the overall universe, obviously, but you don't know how 
many specifically were underpaid?
    Mr. Lawrence. That's correct. That is where when we have 
the things on December 1st going, then we will know.
    Mr. Levin. Okay. Regarding the Accenture contract, what 
specific milestones have you set for them and how are you going 
to assess whether those milestones are met?
    Mr. Orifici. Sir, thank you for that question. Our initial 
milestones, as Charmain stated earlier, we have broken their 
deliverable into two separate builds. The first one, which we 
are starting testing in June, and so, we will be doing testing 
around that, and we will evaluate that, based off the testing 
results from that release.
    The second part of that build is slated for October 1st, or 
the first week in October, and we are looking at starting 
testing in September and we will then evaluate those test 
results against the requirements of the contract and then we 
will work with them to determine whether they have completely 
fulfilled those requirements.
    Mr. Levin. Thank you for that.
    Mr. Missal, and, Dr. Schnitzer, I wanted to turn to you. As 
you both know, the Forever GI Bill became public law August 
2017. Directed VA to implement the provisions by August 2018. 
VA was aware of the bill and its provisions prior to its 
passage. It had nearly a full year after passage to provide 
updates, request clarifications, extensions, and ultimately 
implement those provisions. Few of those things happened, 
however, and those that did were long after the VA repeatedly 
missed deadlines, as had been promised.
    Mr. Missal and Dr. Schnitzer, to both of you, in the 
future, what should be some appropriate milestones for VA to 
check in with Congress and report progress on their projects so 
that this doesn't happen again?
    Mr. Missal. I don't think there can be enough 
communications to make sure that expectations are met. In our 
issue statement, what we did is we put together a chronology of 
events and one of the things that we identified, there didn't 
seem to be the sense of urgency to get the project off the 
ground. It took many months before they really got to the point 
where they are doing the kind of work that you would expect 
early on.
    And I think what we have seen in other situations, the 
communication and the expectation of when they can get 
something done is sometimes not realistic. And I think in all 
these situations, lessons should be learned, and hopefully 
going forward, it will be better.
    Mr. Levin. Any follow-up on that?
    Dr. Schnitzer. Yes, sir. Thank you for the question. I 
would agree with that, but I would add, also, that I think it 
is important to pay attention to the critical path of one of 
these complicated projects and identify all the items that are 
in the critical path to success, know what that is up front, 
have that broadly communicated, have the right governance, and 
then have a systems-integrated approach to it, rather than 
silos.
    Mr. Levin. And my last question for the inspector general, 
during the opening statements, there were a couple of comments 
that sort of downplayed this, made it sound like, Well, you 
know, these are big things to implement. These things happen, 
kind of a normal course, ordinary course.
    Do you agree with those characterizations?
    Mr. Missal. We agree that any time they are doing a system 
implementation, particularly on something as significant as 
this, they need to make sure that they are properly planning, 
they have the resources, they have the expertise, 
significantly, that they communicate. Because one of the 
concerns that we have is when you bring in a number of 
different organizations involved that may not have worked 
together well, you are naturally going to have communication 
issues. You have to make sure everybody is on the same page.
    What we found here is that they were essentially talking 
different languages, because you had OIT, you had VBA, you had 
a contractor, and they weren't all on the same page. So, in all 
of the system integration they are doing--and VA has a number 
of significant systems that they are involved in--you need to 
have all of those going forward.
    Mr. Levin. Thank you. I appreciate that.
    And I would now like to recognize Mr. Banks for another 5 
minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Dr. Schnitzer, your independent technical assessment 
highlighted the inherent difficulties of VA's IT system 
environment, the constant changing requirements, and lack of 
organization. In your opinion, could any contractor have 
succeeded in implementing sections 107 and 501 last year?
    Dr. Schnitzer. So, the short answer is I don't know, and I 
have no way of knowing, because we weren't involved at that 
point and don't have all the evidence from that period of time. 
But I will say that in general, if the requirements are 
understood to be merely writing code and not doing a systems-
integration approach to a problem like this, then nobody will 
succeed. And that is the shared lesson that I think we need to 
bring forward, not just for this program, but for all existing 
and future programs at VA.
    Mr. Banks. Mr. Missal, do you have any follow-on advice on 
that?
    Mr. Missal. I think it, again, goes back to trying to be 
realistic about when you think you can really deliver 
something, and that, again, dealing with it with a sense of 
urgency right up front, making sure that you have the right 
expertise, and if there are doubts, making sure those doubts 
are expressed so that you don't have a situation where there is 
a surprise at the end.
    Mr. Banks. Okay. Mr. Gfrerer, did the U.S. Digital Service 
or VA Digital Service conduct any analysis of the Forever GI 
Bill implementation and for so, when did this happen and was 
there a report submitted?
    Mr. Gfrerer. Congressman, I am not aware of any Digital 
Service interaction to the type that you specify. I would have 
to--given that it was likely if it occurred it was before my 
arrival 4 months ago; I would have to defer to my business 
partners if they have any knowledge of that.
    Mr. Lawrence. I don't know of any.
    Ms. Bogue. No, we don't. There was not one done by Digital 
Service.
    Mr. Banks. Great. That is all I have. Thank you very much.
    I yield back.
    Mr. Levin. Thank you, Mr. Ranking Member.
    I now recognize Chairwoman Lee for 5 minutes.
    Ms. Lee. Dr. Lawrence, I would like to ask you just a few 
questions about the Accenture contract. First of all, under the 
contract, Accenture is required to provide bi- weekly reports 
to the VA. Can this Committee receive those reports?
    Mr. Lawrence. Yes, ma'am.
    Ms. Lee. Okay. Can we receive any already-produced, as well 
as into the future?
    Mr. Lawrence. Yes.
    Ms. Lee. Thank you. Secondly, the contract language states 
that the base period of the contract is February 2019 to 
February 2020 and there is a one-year option from February 2020 
to February 2021; however, the contract also states that the 
ultimate completion date is May 4th, 2021.
    How do these dates track with the VA's statement that the 
system is the going to be operational and then what activities 
are contemplated during those optional periods?
    Mr. Lawrence. Sure. The system will be operational refers 
to December 1st of 2019. So, that is the first year covered by 
this. The two-year contract had sort of the following vision: 
first year, get Colmery 107, 501 going; second year, modernize 
some of the systems problems you have heard described. 
Theoretically, the vision was you would now be familiar with 
what is going on, some of the piece parts, and that we could 
have a different approach, much more of a world-class financial 
institution, and that is what will take place in the second 
year.
    Ms. Lee. Thank you. Mr. Gfrerer, I am just sort of coming 
at this looking at, first of all, I can tell by the men and 
women you have here, and knowing there are many men and women 
in the VA who are working very hard trying to make sure we are 
delivering these benefits to our veterans, and I thank them all 
for their service. I feel like we get caught in this hamster 
wheel. We have well-intending Congresspeople like ourselves who 
pass legislation asking for benefits for veterans. You know, we 
require the VA to implement it resulting in legacy systems, one 
placed on top of the other. So, while you are trying to still 
implement a legacy system from before, we layer something in on 
top of you. So, certainly, I can understand the problems that 
we encounter.
    One question I have is, does OIT have an inventory of all 
the legacy systems?
    Mr. Gfrerer. Yes, Congresswoman, we do.
    Ms. Lee. Would you be able to provide us with a list of 
them, their function, and who in the VA is responsible for 
them?
    Mr. Gfrerer. Yes.
    Ms. Lee. Okay. Great. Thank you very much.
    And I yield my time.
    Mr. Levin. Thank you, Chairwoman Lee.
    I now recognize our Ranking Member, Dr. Roe for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman.
    Just a couple of very quick questions. We know the target 
date is 1 December of this year, and maybe you answered the 
question, but what would be a good milestone so that we know 
that you are going to make that deadline? Is that the October 
standup? Is that when we are really going to know, just a month 
before?
    Ms. Bogue. The October deadline is when we will know if we 
are ready for deployment for December 1st.
    Mr. Roe. And if we are not ready, then what happens in 
January of 2020?
    Mr. Lawrence. So, if we are not ready, well, first, we will 
be communicating with you directly. As you know, we brief your 
team monthly on what is going on, and we have very sensitive to 
this issue, so certainly there would be no surprise. If we are 
not ready, we are going to have a plan to be ready, but at a 
minimum, students will continue to be paid under the rates we 
are using now so that he we don't have the problem that we had 
in the fall of 2018. So, everyone will be continued to be paid. 
We will get the system ready, and then we will go back.
    Mr. Roe. And they will still hold harmless, still?
    Mr. Lawrence. Absolutely.
    Mr. Roe. Okay. One other quick question and I will be done, 
and this is for Dr. Lawrence, if I can find it here. Here we 
go. Outside of the IT modifications, what do you see as the 
biggest challenge that could impact full implementation by 1 
December?
    Mr. Lawrence. This is probably unfair, because I don't mean 
it to sound like--our interactions with the schools and the 
veterans is very, very important, so we depend on the schools 
to get us information. So, we don't want veterans calling up 
and saying, I haven't been paid, and come to find out that the 
schools didn't send us the right thing. That would be 
unfortunate. So, we are trying real hard to make sure that all 
the people who are involved in the process of getting students 
enrolled and paid are dealt with and we are communicating.
    That is our issue, to communicate, teach, train, and 
inform, but that is what we worry about, that if that doesn't 
happen at the end, all the things we will have done 
successfully and right, won't have happened and nobody will 
know that unless they get paid.
    Mr. Roe. You know, I know the veteran won't. They have got 
a payment at the end of the month. They have got a light bill 
or, you know, their rent is done or whatever. So, they are very 
much needing that money. The colleges get paid on time. They 
have a little more cushion, obviously, to take the student, 
whereas, it is more acute for the student who has a bill at the 
end of the month.
    So, are they pushing you, the colleges pushing you to get 
their money? Are they not getting it on time or are they 
getting it on time? I don't know.
    Ms. Bogue. So, there is no impact to the tuition-and-fee 
piece of this. They are receiving their funds on time for the 
colleges.
    I will say the important piece with the schools is 
basically making sure that we have accounted for all branch and 
satellite locations so that way, when it is time to flip the 
switch, that we are able to quickly pay students. So, we are 
working closely with schools right now to make sure that we are 
accounting for all of their locations where a student could 
potentially be residing at and taking the majority of their 
courses so that we can pay them on time when it comes December 
1st.
    Mr. Roe. And just out of curiosity, how many schools are 
you all dealing with? How many separate institutions are you 
all having to deal with?
    Ms. Bogue. There are over 14,000 VA-approved schools.
    Mr. Roe. Fourteen thousand?
    Ms. Bogue. Correct.
    Mr. Roe. Wow. Okay. Thank you I yield back.
    Mr. Levin. Thank you, Mr. Ranking Member.
    If there are no further questions, we can begin to bring 
this hearing to a close. I want to thank Chairwoman Lee, 
Ranking Members Bilirakis and Banks, and of course Dr. Roe, our 
Subcommittee Members, and our expert witnesses who joined us 
today to testify.
    While things haven't gone smoothly with the Forever GI Bill 
implementation, it is important to remember that we all share 
the same goal, as has been said many times, and that is to 
provide veterans with the benefits that they have earned. That 
is why we are here.
    One of the things that we learned is that in the last 18 
months of implementation, that we have to take control of this 
process, define targets along the way to prevent the same 
mishaps from happening again. I am encouraged to the extent 
that I have heard that that is occurring.
    I am also encouraged to hear the Under Secretary reiterate 
the comments of Ms. Devlin that you are 100 percent certain, 10 
out of 10, that these issues will be rectified by the end of 
the year. We will be following up to make sure that that is the 
case.
    I welcome Dr. Roe's suggestion of another hearing on this 
matter and we will be following up, if we believe that to be 
appropriate.
    And my staff, along with the committee, will be reviewing 
the Accenture contract, which I have heard is quite voluminous, 
several thousands of pages, and will undoubtedly have more 
questions as we read that contract and as our staff digs into 
this for you, our witnesses.
    So, I hope that the Department, along with the inspector 
general and MITRE will remain responsive to us and available to 
us and I am very grateful for that.
    With that, I will say that all members have 5 legislative 
days to revise and extend their remarks and to include 
additional materials.
    Again, I thank everyone for coming, and, without objection, 
the Subcommittee stands adjourned.

    [Whereupon, at 11:38 a.m., the Subcommittees were 
adjourned.]





                            A P P E N D I X

                              ----------                              

               Prepared Statement of Dr. Paul R. Lawrence
    Good afternoon Chairman Levin, Chairwoman Lee, Ranking Members 
Bilirakis and Banks, and Members of the Subcommittee. I appreciate the 
opportunity to appear before you today to discuss the status of VA's 
implementation of the provisions in the Harry W. Colmery Veterans 
Educational Assistance Act of 2017 (Colmery Act) or, as it is more 
commonly referred to, the Forever GI Bill. My testimony will address 
the re-setting implementation of sections 107 and 501 of the Forever GI 
Bill; the establishment of a program integration office; and contractor 
support in the areas of program integration, systems implementation, 
software development, and communication efforts. Accompanying me today 
are James Gfrerer, Assistant Secretary for Information and Technology 
and Chief Information Officer; Charmain Bogue, Acting Executive 
Director of Education Service, Veterans Benefits Administration (VBA); 
and Rob Orifici, Information Technology (IT) Specialist, Office of 
Information and Technology (OIT).

Forever GI Bill ``Reset''

    On November 28, 2018, VA announced key changes in the 
implementation of sections 107 and 501 of the Colmery Act. These 
sections dealt primarily with the calculation and processing of housing 
payments under the Post-9/11 GI Bill. Because of the information 
technology difficulties VA experienced with implementing sections 107 
and 501, Secretary Wilkie announced a reset of VA's implementation 
efforts, to give the Department the time, contracting support, and 
resources necessary to develop the capability to process enrollments, 
in accordance with the law, by December 2019.

In the interim, VA will pay monthly housing allowance rates for the 
    Post-9/11

    GI Bill at the current academic year uncapped Department of Defense 
(DoD) Basic Allowance for Housing (BAH) rates. For many students, this 
DoD BAH rate will be equal to or higher than the rate they are due 
under law. VA will also retroactively correct any underpayments 
resulting from sections 107 and 501 implementation problems. If a 
student was overpaid due to the change in law or because of VA's 
challenges in implementing the law, VA will notify impacted students 
individually with the amount VA intends to waive. Concurrently, VA will 
review the debt to ensure it was incurred solely based on 
implementation of sections 107 and 501. Upon confirmation, VA will 
notify the student of the completed waiver. In this process, VA does 
not require anything additional from the impacted student. . For the 
2018 academic year and Fall 2019, VA will continue to pay housing 
allowances based on the location of a school's main or branch campus, 
rather than the physical location where a student attends the majority 
of classes. This interim policy will terminate by December 1, 2019, 
upon implementation of a fully developed IT solution for sections 107 
and 501 of the law.
    The Secretary took three actions to ensure the successful 
implementation of these two provisions of the Forever GI Bill. First, 
he appointed me as the single person responsible and accountable for 
overseeing implementation of the Colmery Act. Second, he directed VA's 
Office of Acquisition, Logistics, and Construction to provide 
acquisition support in the areas of contracting, program integration, 
systems implementation, and software development. Third, he directed 
OIT, and any other offices required to support this effort, to ensure 
that adequate staffing, funding, and/or other necessary resources are 
provided.

Independent Technical Assessment

    In November 2018, OIT chartered MITRE to perform an Independent 
Technical Assessment (ITA) of the capabilities necessary to meet the 
requirements of the Colmery Act. The ITA focused on identifying issues 
related to the delayed delivery of updates of the Long-Term Solution 
(LTS) information system and recommending resolution to the issues 
associated with completing and deploying the required system updates. 
MITRE provided 20 recommendations intended to help OIT ensure that 
adjustments to LTS are successfully tested and deployed in the near 
future. VA completed 10 of the 20 recommendations prior to April 30, 
2019. For example, VA identified and designated a Colmery Act Champion 
and established an End-to-End Chief Systems Integrator. These defined 
leadership positions provide more effective collaboration and 
integration efforts within and across VBA and OIT to support Colmery 
Act systems and processes, which increases the probability of 
successfully developing and deploying Colmery Act systems that meet 
cost, schedule, and performance requirements and constraints. VA also 
established an end-to-end requirements process, and requirements lead, 
for the Colmery Act that encompasses requirements for all systems 
involved in processing education claims. An additional 9 
recommendations will be completed by June 30, 2019, and the remaining 
recommendation, which requires VA to establish common development and 
test environments and processes, will be completed by September 30, 
2019. The approximate cost to conduct the Forever GI Bill ITA was 
$232,000. This effort included data collection (e.g., interviews of 
stakeholders and contractors); document reviews, assessment, 
recommendations, status briefings to the VA final report, accompanying 
briefing; and post report questions and answers (Q&A) with VA.
    While MITRE fulfilled its initial contractual obligation by 
delivering the ITA on November 30, 2018, OIT has contracted MITRE to 
fulfill the recommendations set forth in the ITA as they pertain to the 
Colmery Act Program Integration Office (PIO). The value of the MITRE 
contract, Colmery Act PIO, to address the recommendations from the FGIB 
ITA is $5.2 million.

Program Integration Office

    In preparation for the arrival of the Software Development and 
Systems Integration vendor, VA formally established the PIO as a formal 
entity within the Department with assigned and/or aligned Government 
leaders, staff, Federally Funded Research and Development Center 
(FFRDC) support, and contract support. The PIO also completed the 
refinement and finalization of a comprehensive set of the user stories 
capturing the business requirements for sections 107 and 501, developed 
a draft integrated master schedule, is managing a program risk 
register, and has rebooted the configuration control process.
    The PIO is led by the Assistant Director, Modernization and Process 
Improvement, Office of Business Process Integration. The Colmery 
Program Executive Officer, Education Service, and the Program Manager, 
Education, Claims Processing, Integration, and Consolidation (ECPIC), 
OIT are part of the PIO leadership team. The Colmery Program Executive 
Officer serves as the Product Owner for the Colmery Act ``solution'' 
and the Program Manager, ECPIC serves in the capacity of the IT 
Portfolio Director and the receiving organization representative, per 
the Veteran-focused Integration Process in use for OIT projects. The 
Colmery Program Executive Officer and the Program Manager, ECPIC will 
act together to define and approve the requirements for the Colmery 
solution, define the Minimum Viable Product required to meet program 
objectives, and accept the resulting solution.
    In addition, VA established a program governance structure, which 
is supported by the MITRE Corporation, to serve as the decision 
authority for definition and enforcement of norms for executing program 
activities, and approval or disapproval of lifecycle processes, control 
gates, activities, funding, acquisitions, resources, and systems 
required to achieve successful implementation. MITRE also coordinates 
functional, technical, and programmatic activities, capturing 
associated risks with these activities, and developing mitigation plans 
and strategies to ensure VA is on schedule to meet the December 1, 
2019, implementation date. This includes making recommendations on 
these activities and maintaining governance structures along with a 
change control board to allow for informed and structured decision-
making.

Contract Support

    VA paid approximately $3.9 million to Booz Allen Hamilton under a 
prior support contract in the second quarter of Fiscal Year (FY) 2018 
for their efforts toward implementing sections 107 and 501 of the 
Colmery Act. Booz Allen Hamilton also received additional funding for 
other work efforts associated with implementing section 112 of the 
Colmery Act, which removes the time limitation for the use of 
entitlement for certain individuals under the Post-9/11 GI Bill. Direct 
support costs for section 112 amounted to approximately $648,000, while 
indirect costs in support of other activities totaled approximately 
$6.5 million.
    Booz Allen Hamilton's support efforts resulted in the development 
and delivery of software to enhance the LTS to meet VA's initial 
definitions of sections 107 and 501.
    On February 15, 2019, VA awarded a new contract to Accenture 
Federal Services (AFS) to provide systems integration support to 
coordinate planning, development, and integrated testing of all systems 
associated with Colmery Act implementation. The approximate value of 
AFS' contract is $14 million for FY 2019, based solely on the work 
related to sections 107 and 501. The scope of AFS' contract includes 
development of new software, interfaces with legacy systems, systems 
architecture, and testing. VA awarded this contract in less than 75 
days. Representatives from AFS and VA started working on implementation 
efforts the same day this new support contract was awarded, and 
contractor onboarding is near completion. AFS analyzed the code 
delivered by Booz Allen Hamilton against the sections 107 and 501 
requirements and concluded it will not be used as a starting point for 
AFS' own developmental efforts due to definition changes under these 
sections. AFS, however, will evaluate the available code delivered by 
Booz Allen Hamilton to determine if any portions of it can be reused 
within AFS' own development process under its support contract. In 
addition to work conducted on the Long Term Solution, AFS has also 
started development and integration efforts on the Web Enabled Approval 
Management System and VA Online Certification of Enrollment systems 
which are critical components of the Colmery Implementation, but were 
not part of the Booze Allen Hamilton scope of work.

Claims Processing

    Education claims processing times vary throughout the year due to 
multiple factors, including fall and spring peak enrollment periods and 
IT issues that may affect production. For the Fall 2018 term, VA 
experienced a higher than usual pending inventory count, which resulted 
in increased processing times. This was caused by the delayed 
implementation of the IT solution for sections 107 and 501, the fall 
peak enrollment period, and IT latency issues.
    In consideration of the expected deployment of the IT solution for 
Sections 107 and 501, VA notified schools in early April 2018 to 
suspend submitting claims where the potential existed that a student 
was attending classes in multiple locations. This direction was 
intended to lessen the burden on schools of the requirement to re-
submit enrollment certifications for impacted students after the IT 
deployment. VA communicated that it would continue to accept claims 
when a student was attending all of their classes at the school's main 
campus.
    On July 17, 2018, VA notified schools that the IT solution was not 
ready, and advised them to submit all claims for processing. Following 
the July 17 notice, VA experienced a large increase in submitted claims 
that would have normally been received and processed over six months.
    On September 14, 2018, Education Service reached its highest 
pending inventory since 2012. I am pleased to report that our pending 
claims went from a high of 200,000 claims to the lowest it has been in 
months to under 100,000 claims.

    <bullet>  Pending Claims: As of April 19, 2019, our pending 
inventory is currently 72,176 claims with an Average Days Pending of 
16.4 days for original claims, and 10.1 days for supplemental claims.
    <bullet>  Completed Claims: As shown in the following table, we are 
currently exceeding both timeliness targets of 28 days for original 
claims and 14 days for supplemental claims for the month of April.


 
----------------------------------------------------------------------------------------------------------------
                Average Days to Complete                          April 2019               Timeliness Target
----------------------------------------------------------------------------------------------------------------
Original Claims.........................................                  25.2 days                   28.0 days
----------------------------------------------------------------------------------------------------------------
Supplemental Claims.....................................                  13.9 days                   14.0 days
----------------------------------------------------------------------------------------------------------------


    In addition, we updated the monthly housing rates for Fall 2018 and 
processed over 450,000 corrections by the end of January. We are on 
track to meet or exceed our fiscal year targets of 28 and 14 days for 
processing original and supplemental claims, respectively.
    On March 11, 2019, Education Service began to centralize Work-Study 
processing activities to the Muskogee Regional Processing Office (RPO). 
The decision to centralize Work-Study processing was made based on the 
findings of an internal review and an external study of the program. 
Centralization will improve consistency and timeliness for these 
claims, provide better customer service experiences for the 
beneficiary, and reduce administrative costs. This initiative will have 
an immediate positive impact on participants in the Work-Study program 
and will have minimal impact to the employees at the Buffalo and St. 
Louis RPOs who will no longer be processing Work-Study claims.

Muskogee Latency Issue

    On November 14, 2018, VA testified at a hearing with this Committee 
regarding the significant latency issues that impacted operations for 
weeks during the Fall 2018 term. The impact at the RPOs were so severe 
that increased bandwidth was deployed initially to Muskogee, and later 
to the St. Louis and Buffalo RPOs. The increased bandwidth at the 
Muskogee RPO, by upgrading a circuit, resulted in increased capacity by 
nearly 50 percent. To further address the latency issue at Muskogee, VA 
replaced over 500 user workstations to resolve issues with outdated 
network card drivers. VA also updated application certificates to fix a 
capture issue associated with The Image Management System. In addition, 
the Benefits Delivery Network System performance was improved at 
Muskogee by deploying a patch to 1,887 workstations. The latency issues 
reported at Muskogee and the other RPOs have been resolved.

Stakeholders

    VA has undertaken numerous initiatives to better serve and inform 
our stakeholders. VA increased efforts to more widely disseminate 
information, and to improve the quality of information communicated. We 
have begun holding monthly roundtable discussions with schools, 
Veterans Service Organizations, State Approving Agencies, and other 
stakeholders to keep our partners aware of our development progress, 
implement their suggestions, plan for any concerns they may have, and 
to help us communicate the upcoming changes. Each session will include 
different stakeholder representatives (for example, our first session 
invited the top 25 GI Bill schools). All stakeholders will receive 
follow up emails with notes and Q&As.
    Mr. Chairman, this concludes my testimony. My colleagues and I are 
prepared to respond to any questions you or other Members of the 
Subcommittee may have.

                                 <F-dash>
                           Michael J. Missal
    Mr. Chairman, Madam Chair, Ranking Member Bilirakis, Ranking Member 
Banks, and members of the Subcommittees, thank you for the opportunity 
to discuss the Office of Inspector General's (OIG's) recent Issue 
Statement, Forever GI Bill: Early Implementation Challenges.\1\ My 
statement will focus on the information collected to respond to 
concerns from members of Congress and the public about the 
implementation of the Forever GI Bill requirements. It underscores the 
challenges VA continues to face in developing the information 
technology (IT) systems needed to effectively carry out its mission.
---------------------------------------------------------------------------
    \1\ Forever GI Bill: Early Implementation Challenges, March 20, 
2019.
---------------------------------------------------------------------------
    The OIG conducts oversight of VA programs and operations through 
independent audits, inspections, reviews, and investigations. Our 
oversight of the programs and operations of the Veterans Benefits 
Administration (VBA) has identified a lack of effective program 
leadership and inadequate IT functionality as two recurring themes.\2\ 
These deficiencies have negatively affected current programs and the 
implementation of new policies and initiatives, resulting in the 
inefficient delivery of services and inaccurate benefits provided to 
veterans. The OIG reported that these same issues negatively impacted 
VA's efforts to implement the Forever GI Bill requirements.
---------------------------------------------------------------------------
    \2\ Other themes include deficient control activities and failures 
to plan for the unintended impact of the national work queue. See the 
Inspector General's statement from the November 29, 2018, hearing 
before the Subcommittee on Disability Assistance and Memorial Affairs, 
Committee on Veterans' Affairs, U.S. House of Representatives, at 
https://www.va.gov/oig/pubs/statements/VAOIG-statement-20181129-
missal.pdf

---------------------------------------------------------------------------
BACKGROUND

    VBA is responsible for delivering approximately $100 billion in 
federally authorized benefits and services-including education 
benefits-to eligible veterans, their dependents, and survivors. The 
Harry W. Colmery Veterans Educational Assistance Act of 2017 (Public 
Law 115-48), also known as the Forever GI Bill, became law on August 
17, 2017, and expanded education benefits for veterans, servicemembers, 
families, and survivors. Among the Act's provisions is elimination of 
the deadline to use benefits within 15 years for certain beneficiaries, 
and changes to the formula for providing a monthly housing allowance.
    In November 2018, VBA acknowledged implementation challenges with 
two key requirements of the Forever GI Bill related to the housing 
allowance (sections 107 and 501). The effective date of section 501 was 
January 1, 2018, while the effective date for section 107 was August 1, 
2018. These two sections fundamentally redesign how VBA pays monthly 
housing allowances to veterans using the Post-9/11 Educational 
Assistance Program, including changing the base for the calculation of 
monthly housing stipends to the location of the campus where the 
student attends most classes, instead of the location of the main 
campus of the institution. VA's failure to properly implement these 
requirements led to the delivery of inaccurate and/or delayed housing 
stipend payments to eligible GI Bill recipients.
    During the fall of 2018, the OIG received multiple congressional 
requests to review VA's actions to implement the housing allowance 
provisions and to investigate allegations that VA planned to withhold 
retroactive payments for missed or underpaid monthly housing stipends 
for students under the Forever GI Bill. In response to these 
congressional requests, an OIG team began reviewing VA's implementation 
of the Forever GI Bill requirements. During this review, Congress 
passed the Forever GI Bill Housing Payment Fulfillment Act (Public Law 
115-422, January 3, 2019) mandating that VA report to Congress within 
90 days on its plan to fully implement sections 107 and 501 of the 
Forever GI Bill.

FOREVER GI BILL ISSUE STATEMENT

    Given the seriousness of concerns raised in congressional requests 
and the impact of delayed or incorrect payments on veterans, the OIG 
examined VA's early implementation actions and the impediments to 
meeting Forever GI Bill implementation mandates. The review team 
created a timeline of significant events, which is attached as an 
appendix to this statement.
    The OIG found that VBA's implementation of the payment of the 
housing allowances under the Forever GI Bill was hampered by the same 
underlying issues that have negatively affected VBA's implementation of 
other new policies and initiatives-lack of IT system functionality and 
inadequate program leadership. Specifically, the OIG found that VBA 
failed to modify its IT systems by the required implementation date to 
make accurate housing allowance payments. Additionally, VA lacked a 
single accountable official to oversee the project, which resulted in 
unclear communications to VA stakeholders of implementation progress 
and inadequately defined expectations, roles, and responsibilities of 
the various VA business lines and contractors involved.

System Modifications

    The OIG found that approximately 10 months passed from the time the 
Forever GI Bill became law to when VA received the initial software 
development release and began testing the system modifications to VA's 
Long Term Solution (LTS) application in order to address sections 107 
and 501.\3\ LTS is an IT application for automated processing of 
Chapter 33, Post-9/11 Educational Assistance claims and is used to 
establish eligibility, determine payments, or disallow claims.\4\ Once 
VA began testing the software development release, it identified 
defects that required the development of additional versions of LTS. 
Based on interviews, the OIG team learned that when user testing 
occurred, the tests failed scenarios that VBA did not account for when 
developing the business requirements.
---------------------------------------------------------------------------
    \3\ VA had to implement section 107 by August 1, 2018.
    \4\ Chapter 33 of Title 38 of the United States Code provides the 
framework for Post-9/11 Educational Assistance.
---------------------------------------------------------------------------
    VA also learned of changes needed to the VA ONline Certification of 
Enrollment program, a VA system that feeds necessary data to LTS. VA 
eventually paused testing on LTS software for sections 107 and 501 in 
August 2018 and reexamined the requirements. Subsequently, VA provided 
several new LTS testing scenario updates to Booz Allen Hamilton, the 
contractor tasked with modifying LTS.

Lack of a Single Accountable Official

    The parties involved in the implementation were primarily the VA 
Office of Information and Technology, VBA Education Service, VBA Office 
of Business Process Integration, Booz Allen Hamilton, and various VA 
leaders. Throughout planning and early implementation efforts, VA did 
not have a single accountable official to oversee the project and 
coordinate the roles and responsibilities of the many VA program 
offices and contractors involved.
    The OIG found that VA's program offices held different expectations 
from one another as to what they considered complete and accurate 
business requirements. In addition, VA's Office of Information and 
Technology and VBA Education Service had divergent opinions of a 
deployable solution. Without an accountable official, these differing 
opinions and expectations were not mitigated or resolved and became 
significant impediments to a successful and timely implementation of 
the Forever GI Bill requirements.
    In November 2018, Secretary Wilkie named Dr. Paul Lawrence, Under 
Secretary for Benefits, as the official responsible for implementing 
the Forever GI Bill.

MITRE Technical Assessment

    As part of this review, the OIG considered the results of an 
independent technical assessment conducted by The MITRE Corporation. VA 
tasked The MITRE Corporation with performing an assessment to identify 
issues related to the delayed delivery of LTS and to recommend a 
resolution. The resulting report, dated November 30, 2018, included 22 
findings and 20 recommendations to VA to help ensure that LTS is 
successfully tested and deployed. The findings and recommendations 
focused on issues of leadership and governance, the technical 
environment, processes, requirements management, personnel authority 
and responsibilities, and software code evaluation.

CONCLUSION

    The OIG has continually identified systemic problems that VBA needs 
to address when implementing new initiatives and policies, including a 
lack of IT system functionality, poor planning, and inadequate program 
leadership. These same systemic problems were a significant factor in 
the delays and disruptions VA has experienced while implementing the 
housing allowances requirements in the Forever GI Bill. The OIG will 
continue to monitor VA's implementation actions and will review the 
plan provided to Congress under the Forever GI Bill Housing Payment 
Fulfillment Act.
    Mr. Chairman, Madam Chair, and members of the Subcommittees, this 
concludes my statement. I would be happy to answer any questions you 
may have.

Appendix

    The timeline below represents activities that occurred from the 
enactment of the Forever GI Bill in August 2017 to January 2019, as 
reported to the OIG team by VA and Booz Allen Hamilton personnel. 
According to the Forever GI Bill, the effective date of section 501 was 
January 1, 2018, and the effective date for section 107 was August 1, 
2018.

High-Level Timeline of Events

August through November 2017

    <bullet>  VBA Education Service established a Program Executive 
Office to monitor and coordinate all Forever GI Bill implementation 
activities.
    <bullet>  VA conducted internal analyses and found that 22 of 34 
sections needed IT solutions at an estimate of $70 million, and that, 
without IT changes, VA would need almost 1,000 new employees, including 
more than 800 solely for implementing the requirements of sections 107 
and 501.
    <bullet>  VA's Office of Information and Technology committed to 
providing a solution to sections 107 and 501, and decided to partially 
redirect an already awarded contract with Booz Allen Hamilton to 
conduct some of the work.
    <bullet>  VBA Education Service staff began identifying 
requirements for VA's LTS application with Booz Allen Hamilton.

December 2017 through May 2018

    <bullet>  From December 2017 through April 2018, requirements 
elaboration, software development, testing, and deployment to address 
the requirements of section 112 of the Forever GI Bill were also 
carried out.
    <bullet>  Business requirements were loaded into an application 
used to manage and track changes, and the process of clarifying the 
requirements for sections 107 and 501 was started.
    <bullet>  The previously awarded contract with Booz Allen Hamilton 
was amended to include work on sections 107 and 501. Booz Allen 
Hamilton started onboarding teams to address these sections.
    <bullet>  According to Booz Allen Hamilton, its teams were fully 
staffed for sections 107 and 501 work by March 2018.
    <bullet>  Booz Allen Hamilton started software development on 
sections 107 and 501, although requirements generation and 
clarification were ongoing.
    <bullet>  VA learned of changes needed to the VA-ONCE program, a VA 
system that provides necessary data to LTS.

June through October 2018

    <bullet>  Booz Allen Hamilton delivered the initial LTS release to 
address sections 107 and 501 to VA for testing. As testing continued to 
identify defects, additional versions of LTS were developed.
    <bullet>  New VA-ONCE requirements to provide data to LTS were 
identified.
    <bullet>  VA paused testing on LTS software for sections 107 and 
501 in August 2018 and reexamined the requirements.
    <bullet>  VA provided several LTS testing scenario updates to Booz 
Allen Hamilton.
    <bullet>  Software testing continued. Booz Allen Hamilton and VA's 
Office of Information and Technology determined that the VA-ONCE system 
did not have the requirements needed to provide the necessary data to 
LTS.\5\
---------------------------------------------------------------------------
    \5\ As of November 2018, the anticipated completion date for 
updates to VA-ONCE was estimated to be March 2019 or later.

---------------------------------------------------------------------------
November 2018

    <bullet>  Booz Allen Hamilton provided the most current version of 
LTS to VA. VA assessed whether to deploy this version.
    <bullet>  VA announced that, effective December 1, 2018, VBA ``will 
reset its implementation efforts for sections 107 and 501 of the law to 
give the department the time, contracting support and resources 
necessary to develop the capability to process Spring 2020 enrollments 
in accordance with the law by December 1, 2019. This includes 
soliciting bids from contractors for support in the areas of program 
integration, systems implementation, and software development.. Also, 
for the current academic year (2018-2019), VBA will pay housing 
allowances based on the location of a school's main campus, rather than 
the physical location of the student.''\6\
---------------------------------------------------------------------------
    \6\ https://www.blogs.va.gov/VAntage/54520/post-9-11-gi-bill-
housing-payment-rates-update/
---------------------------------------------------------------------------
    <bullet>  VA released another statement clarifying that ``once VA 
is in a position to process education claims in accordance with the new 
law-each and every beneficiary will receive retroactively the exact 
benefits to which they are entitled under that law.''\7\
---------------------------------------------------------------------------
    \7\ https://www.va.gov/opa/pressrel/pressrelease.cfm?id=5154

---------------------------------------------------------------------------
As of January 2019

    <bullet>  VA issued a Request for Information for a contractor to 
provide a fully functional and operational solution that fully 
implements the Forever GI Bill, to include all software and software 
development, integration, testing, maintenance, and training. VA was in 
the process of developing a Request for Proposal.

                                 <F-dash>
                       Jay Schnitzer, M.D., Ph.D.
    Chairman Levin, Chairman Lee, Ranking Members Bilirakis and Banks, 
and distinguished Members of the Subcommittees on Economic Opportunity 
and Technology Modernization, thank you for the opportunity to testify 
before you today on matters relating to the implementation of Sections 
107 and 501 of the Colmery Act, also known as the Forever GI Bill 
(FGIB). These provisions impact all Post-9/11 GI Bill beneficiaries in 
receipt of a Monthly Housing Allowance (MHA), as they changed the way 
the Department of Veterans Affairs (VA) must pay MHA. The law amended 
the location basis for the MHA and aligned MHA payments with the 
Department of Defense's basic housing allowance (BAH) rates. As you 
know, implementation of this legislation is a critically important 
issue for untold numbers of Veterans. MITRE very much appreciates the 
opportunity to share our insight from our work on this critical 
program.
    MITRE is a 501(c)(3) not-for-profit corporation. We are chartered 
to operate in the public interest, which includes operating federally-
funded research and development centers, or FFRDCs, on behalf of 
Federal agency sponsors. We currently operate seven FFRDCs sponsored by 
a variety of Federal sponsors including the Department of Veterans 
Affairs, which is a co-sponsor of MITRE's Center for Enterprise 
Modernization (CEM). Our Center for Enterprise Modernization was 
established in 1998 by the Department of Treasury's Internal Revenue 
Service (IRS) and we have been proud to support many modernization 
efforts under that FFRDC, including aspects of the VA's modernization 
efforts. The other primary sponsors for which MITRE operates FFRDCs 
include the Department of Defense; the Centers for Medicare and 
Medicaid Services at the Department of Health and Human Services; the 
National Institute of Standards and Technology; the Federal Aviation 
Administration; the Department of Homeland Security; and the U.S. 
Courts - the latter being the only non-Executive Branch entity that has 
created an FFRDC to date.
    I mention these other sponsors because operating seven FFRDCs for 
this wide range of agencies gives MITRE a truly unique vantage point 
with regard to the execution of critical programs and modernization 
challenges facing the Federal government. It also greatly informs the 
advice we are able to provide to those whom we assist.
    Given this context, I think it's important to stress to the 
Committee right up front that the kinds of issues the VA experienced in 
executing Sections 107 and 501 of the Colmery Act last year are not 
unique to the VA. Indeed, they are challenges we have seen repeatedly 
across the government as agencies struggle to execute highly complex, 
integrated mission requirements and modernize their systems and 
processes to address new mission needs.
    MITRE's involvement with the Colmery Act began on September 28 of 
last year, when we were engaged by the Office of Information and 
Technology (OIT) to perform an Independent Technical Assessment (ITA) 
of the VA's implementation of Sections 107 and 501 of the FGIB. As 
noted above, these provisions made significant changes to Veterans' 
education benefits by enhancing and expanding these benefits for 
Veterans, servicemembers, families, and survivors. The set of systems 
and processes involved in administering GI Bill benefits, then and now, 
include a major system referred to as the Long-Term Solution, or LTS. 
At the time MITRE was asked to conduct the ITA, LTS and other legacy GI 
Benefits systems were being updated to provide the functionality, 
processes, and datasets required to deliver the expanded benefits 
required by the Colmery Act. However, the deployment of the requisite 
Colmery Act capability originally expected to occur by July 2018 was 
repeatedly delayed.
    The focus of the independent assessment requested by OIT was to 
identify issues related to the delayed delivery of LTS and to recommend 
a resolution to the issues associated with completing and deploying the 
required system updates. OIT and MITRE jointly developed a Terms of 
Reference document to scope the work. Subsequently, MITRE was 
contractually tasked to explore the following five assessment areas:

    1.Leadership and Governance;

    2.Technical Environment;

    3.Process;

    4.Requirements Management; and

    5.Personnel Authorities and Responsibilities.

    During the course of the ITA's execution, a sixth topic of concern, 
Software Code Evaluation, was added to the scope.
    The ITA team received and reviewed approximately 50 documents 
related to the implementation of functionality supporting the Colmery 
Act. It conducted site visits and interviews with the development 
contractor and multiple OIT and Veterans Benefits Administration (VBA) 
leaders and managers. The ITA team also performed a rapid software code 
evaluation of the latest LTS code base.
    After documenting observations from the interviews, site visits, 
software code evaluation, and document reviews, the ITA team concluded 
that the previous strategy for implementing the Colmery Act, consisting 
of a distributed model with many leaders across multiple organizations 
in charge of specific operational and oversight activities, with little 
or no semblance of a tightly-coupled, integrated approach, was not 
conducive to success. Analysis of the observations resulted in the 
development of 22 findings and 20 recommendations, contained in our 
technical report.
    The ITA team's review of the observations, findings, and 
recommendations across the assessment areas - informed by industry 
benchmarks and best practices, insight from subject matter experts, and 
experience with large-scale software intensive systems - enabled it to 
identify four systemic findings that were preventing rapid integrated 
capability delivery under the strategy then in place:

    1.Technical and business leaders were not fully empowered to 
address issues related to the Colmery Act due to a lack of clear 
authority, priorities, and goals;

    2.Work priorities, resources, and authorities for execution were 
not aligned for the delivery of Colmery Act functionality;

    3.Operations and processes within and across VBA and OIT were not 
focused on the Colmery Act functionality, impeding the information flow 
to leaders; and

    4.Data and tools were not integrated across LTS and the legacy 
systems, impeding delivery of the Colmery Act functionality.

    The ITA team's recommendations spanned all five assessment areas, 
as well as the software code evaluation. Many, but not all, of the ITA 
recommendations directly aligned to and addressed one or more of the 
four systemic findings highlighted above.
    As noted, several key findings related not to technical 
considerations, but rather to the assignment of responsibilities and 
questions of alignment centered around governance, authorities, 
priorities, and goals. Among other things, the ITA identified the need 
to establish:

    <bullet>  A single cross-organizational business leader and 
champion for the overall effort;
    <bullet>  New program governance structures, including a new Light 
Governance Council to serve as the decision authority for definition 
and enforcement of norms for executing program activities, as well as 
the approval or disapproval of lifecycle processes, control gates, 
activities, funding, acquisitions, resources and systems required to 
achieve successful implementation;
    <bullet>  A new Program Integration Office, accountable for 
definition, coordination, and management of functional, technical, and 
programmatic activities across the VA; and
    <bullet>  An end-to-end systems integrator, to coordinate planning, 
development, and integrated testing of all systems associated with 
implementation of FGIB, including new software development, interfaces 
with legacy systems, systems architecture, and testing.

    I am pleased to inform you that these recommendations and others 
were fully accepted by the VA leadership soon after our ITA was 
completed and briefed to senior leaders in December. The restructuring 
recommendations oriented around program oversight and management have 
been implemented, and several of the technical recommendations have 
been, as well. As you know, the Under Secretary for Benefits was 
appointed to oversee overall implementation of the effort, aided by the 
Chief Information Officer and supported by a Light Governance Council, 
referred to as Program Governance, led by two Co-Chairs, representing 
the interests of the business and the technical communities 
respectively. The Under Secretary is actively leading a very focused 
and fully integrated effort to address the remaining ITA 
recommendations, which are currently in the process of being 
implemented along a determined timeline with final delivery by December 
2019.
    Reporting to the Under Secretary for Benefits, Program Governance, 
led by the Director, Education Service and the Education Product Line 
Manager for the Office of Information and Technology, provides 
technical and operational leadership, direction and broad guidance to 
the Colmery program, and foster an environment where decisions can be 
made that ensure the program meets objectives.
    And reporting to Program Governance is a new Program Integration 
Office (PIO), led by key leaders from the Education Service, Office of 
Business Process Integration and OIT, who are responsible for 
definition, coordination, and management of functional, technical, and 
programmatic activities. MITRE is embedded within the Program 
Integration Office.
    This leadership team has been both highly integrated and extremely 
proactive. As is typical for any integration effort, the program is not 
completely without risk - given the many systems and organizational 
components involved, there are multiple interdependencies - but the VA 
now has in place an integrated program team that is deliberately 
managing to that risk by identifying the critical path activities and 
decisions needed to succeed and contingencies to mitigate the risk.
    MITRE remains committed to the success of this initiative in 
partnership with the VA leadership and the selected systems integrator. 
We anticipate providing independent, conflict-free strategic advice and 
guidance to the Program Integration Office through final delivery. Our 
involvement thus extends to a broad range of activities that includes 
program and technical strategy, systems engineering, requirements 
engineering, test and evaluation engineering, acquisition, and cost 
estimating in support of the planning, implementation, and deployment. 
I should note that it is MITRE's intention to phase out its involvement 
in the Department's program integration function following delivery of 
the Colmery Act solution, but our goal is to assist the VA in 
establishing an organic capability to perform this integration function 
on its own in the future. We view the model set forth by the ITA, which 
identified systemic findings that have been addressed by the VA, 
systems integrator, and contract team in this instance, is a model that 
is exportable to other complex integration and modernization efforts in 
the VA's current and future portfolio of programs and projects, and the 
VA leadership has expressed its intention to adopt this approach going 
forward.
    In closing, let me just note that of MITRE's roughly 8,500 
personnel, some 30 percent are Veterans. There are few duties that our 
employees consider more noble and consequential than honoring, through 
our support for the VA, the service and sacrifice of our Nation's men 
and women in uniform. On behalf of the entire MITRE team, I greatly 
appreciate the opportunity to come before you today, and I look forward 
to your questions.

                                 <F-dash>
                        STATEMENT FOR THE RECORD
                    Veterans Education Success (VES)
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Subcommittee:

    Veterans Education Success (VES) is a non-profit organization with 
a mission to advance higher education success for veterans, 
servicemembers, and military families, and to protect the integrity and 
promise of the GI Bill and other Federal education programs.
    In addition to research, providing free case work to students 
having trouble with GI Bill or impacted by predatory schools, and 
elevating the voices of students to share with policy makers both their 
positive and negative experiences in higher education, we are focused 
on addressing ways to increase the continued academic success of 
military-connected students in their pursuit of their academic goals.
    We appreciate the opportunity to share our perspective on the 
continued efforts of the Department of Veterans Affairs (VA) to 
implement the Harry W. Colmery Educational assistance act of 2017 
(Public Law 115-48) also known as the Forever GI Bill (FGIB).
    Since the significant challenges faced by VA during its attempted 
implementation of sections 107 and 501 of the FGIB during the Fall 2018 
semester, we have seen continued efforts and commitment by VA to 
institute a smoother implementation moving forward. While we remain 
hopeful, we believe continued oversight by Congress is of the utmost 
importance.

Recommendations Moving Forward

    As such, Veterans Education Success makes the following 
recommendations:

    1.Continued Communication - We appreciate the work VA has done to 
communicate with key-stakeholders and hope they continue to:

    a.Communicate Proactively - Proactive communication to key 
stakeholders, to include students, institutions of higher learning, and 
military and veteran service organizations, is beneficial as we work to 
support students who might be impacted by any potential delays or 
challenges with implementation.

    b.Communicate Transparently - Should there be signs that 
implementation is not going as expected and as promised by VA to this 
Committee, we ask that VA share this information so that necessary 
precautions can be taken by those groups helping students and so 
students can plan accordingly. This includes giving accurate deadlines 
for implementation, even if they are not what we want to hear. 
Transparency will make it easier to proactively address potential 
challenges.

    2.General Recommendations

    a.Continued Engagement of Key Stakeholders - Among other things, 
VBA has been hosting monthly meetings with military and veteran groups 
to provide updates on the implementation process. We expect this to 
continue.

    b.Clear and Defined Timeline on When Students Will be Made Whole 
and What That Process Will Look Like - From what has been communicated 
to us during external stakeholder meetings with VBA, they have yet to 
identify a timeline for how and when students will be made whole for 
payments made for Monthly Housing Allowances (MHA) from August 2018 - 
December 2019. Much of this had to do with the delayed implementation 
of the contract with Accenture, the new IT contractor. While we 
appreciate the cautious steps being taken to roll this out in a way 
that will not have the same challenges VA had in the Fall of 2018, it 
is paramount that VBA do it without delay for students, especially for 
those graduating this month, to be able to know when and how much money 
they will be receiving.

    c.Enforce Mandatory Overtime When Needed-VA needs all hands on deck 
to ensure students receive their MHA in a timely manner and endure no 
more hardships.

    d.Promptly and Thoroughly Address a Lagging IT Infrastructure - 
There is clearly a significant issue with the existing education IT 
systems. They are failing. Addressing this issue is mandatory.

    We ask that members of Congress and VA continue to make it a 
priority to address these issues in a timely and efficient manner. 
While $30 million was allocated for an upgraded IT system, it is not 
clear that this amount of money will suffice for the upgrade.
    We also ask the Secretary of Veterans Affairs ensures this money is 
used specifically for what it is intended to do, build and enhance a 
new IT system. The current outdated system is failing and has had too 
many patches added to it to try and fix it. Like a boat, there can only 
be so many patches before it risks sinking. This IT system has now 
negatively impacted the lives of hundreds of thousands of veterans and 
their families and must be addressed.

    e.Conduct Study on Feasibility on Batch Payments - Unlike VA, the 
Department of Education (ED) processes batch payments to schools prior 
to the semester starting based on the enrollment of past years. This 
process has been effective for both schools and ED, and we believe 
there might be lessons learned for VA on ways to more effectively 
process education benefit payments. In theory, this process could 
alleviate the work of VA on the front end, so they can focus on 
processing the MHA for students. While we understand there are many 
variables between how VA processes payments and how ED processes 
payments, we believe there might be potential for better streamlining 
the current system at VA. Additionally, it would protect students from 
being dropped from classes, charged late fees, and/or being prohibited 
from registering for class for the following semester.

    f.Provide Students Accurate Benefits Information - Create a 
document, similar to a check stub, that students can use to show 
landlords and other loan guarantors. This stub will confirm the amount 
of money they will be receiving each month in their MHA and will help 
them in securing housing, utilities, etc.

    g.Oversee the Continued Implementation of the VetTec Provision - As 
a pilot program, this provision could provide potential for some 
students to get high quality credentials in technology. To provide a 
strong return on investment for both the tax payer and the students, it 
is imperative that oversight of these companies meet the Congressional 
intent of the law, i.e. provide training that leads to strong 
employment outcomes and incorporates substantive education for students 
who are attending these programs.
    We encourage VA to work with ED to get information and guidance on 
topics such as ``regular and substantive interaction'' for distance 
education and ``job placement'' standards they use to ensure quality 
education. Additionally, we recommend that the 85/15 rule apply for all 
four years the program is offered and not just for the first year. This 
rule was implemented to protect student veterans from being preyed upon 
for their education benefits and has proven to be a reliable 
accountability metric.

    h.Make Economic Opportunity a priority - The military and veteran 
service community continues to stay committed to seeing the office of 
Economic Opportunity become a priority within VA. The challenges VA 
faced implementing the Forever GI Bill is a vital example for why the 
community continues to advocate for a fourth administration. How the 
Forever GI Bill is implemented moving forward will either reinforce to 
the community why this change is needed or demonstrate to the community 
the Office of Economic Opportunity is indeed housed in the appropriate 
area within VA.
    We appreciate the work VA has done to address these concerns and 
hope these recommendations can provide helpful guidance moving forward. 
Those who served our country and are using their hard-earned benefits 
to attend school and ensure their civilian economic success deserve to 
pursue their education with the peace of mind they will receive their 
education benefits in a timely fashion.
    We also appreciate the amount of time, effort, and attention the 
Committee has dedicated to providing oversight of the implementation of 
the Forever GI Bill.

    Tanya Ang
    Vice President
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4b0858a9d85a4b281908196858a97a180918785908d8b8ab7918787819797ca8b9683">[email&#160;protected]</a>

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
